Petition Appendix

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 1 of 66

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

ANTHONY BERNARD SMITH, JR.,
Petitioner-Appellant,

No. 17-15874
D.C. No.
2:15-cv-01785JAM-AC

v.
RON DAVIS,
Respondent-Appellee.

OPINION

Appeal from the United States District Court
for the Eastern District of California
John A. Mendez, District Judge, Presiding
Argued and Submitted En Banc September 24, 2019
San Francisco, California
Filed March 20, 2020
Before: Sidney R. Thomas, Chief Judge, and Ronald M.
Gould, Marsha S. Berzon, Johnnie B. Rawlinson, Carlos T.
Bea, Sandra S. Ikuta, Mary H. Murguia, Paul J. Watford,
Andrew D. Hurwitz, Mark J. Bennett and Ryan D. Nelson,
Circuit Judges.
Opinion by Judge Bea;
Dissent by Judge Berzon

1a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 2 of 66

2

SMITH V. DAVIS
SUMMARY *

Habeas Corpus
The en banc court affirmed the district court’s denial of
California state prisoner Anthony Smith’s habeas corpus
petition as untimely, in a case in which Smith argued that he
was entitled to extend the one-year limitations period set
forth in 28 U.S.C. § 2244(d)(1) by equitable tolling for the
66 days between the date his conviction became final in the
state appellate court and the date when his attorney informed
him of that unsuccessful appeal and provided him with the
state appellate record.
The en banc court affirmed because Smith failed to
exercise reasonable diligence during the 10 months available
after he received his record from his attorney and before the
time allowed by the statute of limitations expired.
In view of the historic practice of courts of equity and
modern Supreme Court precedent governing equitable
tolling, the en banc court made two related holdings.
First, for a litigant to demonstrate he has been pursuing
his rights diligently, and thus satisfies the first element
required for equitable tolling, he must show that he has been
reasonably diligent in pursuing his rights not only while an
impediment to filing caused by an extraordinary
circumstance existed, but before and after as well, up to the
time of filing his claim in federal court. In so holding, the
en banc court rejected the “stop-clock” approach under
*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

2a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 3 of 66

SMITH V. DAVIS

3

which whenever a petitioner is impeded from filing his
petition by extraordinary circumstances while the time
period of a statute of limitations is running out, he may add
the time during which he was so impeded to extend the
limitations period, regardless whether he was reasonably
diligent in filing his petition after the impediment was
removed.
Second, it is only when an extraordinary circumstance
prevented a petitioner acting with reasonable diligence from
making a timely filing that equitable tolling may be the
proper remedy. In evaluating whether an extraordinary
circumstance stood in a petitioner’s way and prevented
timely filing, a court is not bound by mechanical rules and
must decide the issue based on all the circumstances of the
case before it.
Applying this framework to Smith’s petition, the en banc
court accepted Smith’s allegations as true and assumed that
his attorney’s failure to contact him for five months after his
state appeal was denied was sufficiently egregious so that it
could qualify as an “extraordinary circumstance” that
created an impediment to filing under the second required
element for equitable tolling. The en banc court nevertheless
concluded that Smith did not exercise the necessary
diligence to satisfy the first element because when given the
opportunity to explain how he had used his time diligently
after receiving his file from his attorney, Smith made no
allegation or claim in his opposition to the motion to dismiss
or his supporting declaration that he had acted diligently but
had not been able to file earlier.
Dissenting, Judge Berzon, joined by Chief Judge
Thomas and Judges Murguia, Watford, and Hurwitz, wrote
that the central problem with the majority’s approach

3a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 4 of 66

4

SMITH V. DAVIS

concerns its substitution of its own determination of the time
needed to file for Congress’s clear prescription that
petitioners are to be given 365 days to draft and file a federal
habeas petition.

COUNSEL
David M. Porter (argued), Assistant Federal Defender;
Heather E. Williams, Federal Defender; Federal Defenders
of the Eastern District of California, Sacramento, California;
for Petitioner-Appellant.
Justain P. Riley (argued), Deputy Attorney General; Tami
Krenzin, Supervising Deputy Attorney General; Michael P.
Farrell, Senior Assistant Attorney General; Xavier Becerra,
Attorney General; Office of the Attorney General,
Sacramento, California; for Respondent-Appellee.

4a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 5 of 66

SMITH V. DAVIS

5

OPINION
BEA, Circuit Judge:
Anthony Smith is imprisoned in the custody of the
California Department of Corrections and Rehabilitation
having been convicted of burglary, robbery, and forcible oral
copulation. He appeals the district court’s denial of his
petition for the writ of habeas corpus. The denial was
ordered solely because Smith’s petition was not timely filed.
Smith acknowledges he filed his petition more than two
months after the expiration of the applicable statute of
limitations, see 28 U.S.C. § 2244(d)(1), but argues he was
entitled to extend the limitations period by equitable tolling
for the 66 days between the date his conviction became final
in the state appellate court and the date when his attorney
informed him of that unsuccessful appeal and provided him
the state appellate court record. The district court found
Smith was not diligent in his use of the 10 months remaining
in the limitations period after he received the case file from
his attorney and that the delay in receiving his record had not
been the cause of his untimely filing. The district court
refused to apply equitable tolling to toll the statute of
limitations.
Smith asks us to reverse the district court and to extend
the period of the statute of limitations by those 66 days. He
asks us to adopt a flat rule: a “stop-clock” approach to
equitable tolling so that whenever a petitioner is impeded
from filing his petition by extraordinary circumstances while
the time period of a statute of limitations is running out, he
may simply add the time during which he was so impeded to
extend the period of the statute of limitations, regardless
whether he was reasonably diligent in filing his petition after
the impediment was removed. What Smith requests is an
application of equitable tolling that is contrary to Supreme

5a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 6 of 66

6

SMITH V. DAVIS

Court precedent and also contrary to traditional principles of
equity, in which “each case as it arises must be determined
by its own particular circumstances.” McQuiddy v. Ware,
87 U.S. (20 Wall.) 14, 19 (1874). The rule he asks us to apply
is something much more akin to the uniform, forwardlooking actions of a legislature. But, of course, we are not a
legislature; we are a court. Because, as a court, we must
follow the precedents that require we employ principles of
traditional equity and evaluate whether Smith was
reasonably diligent in filing his habeas petition before we
equitably toll the statute of limitations, we decline to adopt
his suggested approach. Therefore, we affirm the district
court’s order denying Smith’s habeas petition because Smith
failed to exercise reasonable diligence during the 10 months
available after he received his record from his attorney and
before the time allowed by the statute of limitations expired.
I. Background
Smith was convicted in California state court in 1998 of
one count of residential burglary, two counts of robbery, and
one count of forcible oral copulation. He was sentenced to
25-years-to-life. Smith was granted federal habeas relief in
2010 for the forcible oral copulation conviction, but after a
retrial he was again convicted of forcible oral copulation and
then again sentenced to 25-years-to-life in 2012. Smith
appealed his conviction through the California courts, which
denied his appeals. His state appeals culminated when the
California Supreme Court issued a summary denial of his
petition for review on March 12, 2014. Smith did not seek
review in the United States Supreme Court, and his
conviction became final on June 10, 2014, when the time for
filing a petition for a writ of certiorari expired.
Smith was represented in his California state appeals by
a court-appointed attorney. After the California Supreme

6a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 7 of 66

SMITH V. DAVIS

7

Court denied Smith’s petition for review in March 2014,
Smith alleges the next correspondence he had with his
attorney was a letter received on August 15, 2014, which
informed Smith that his California state appeal had been
denied and that the attorney’s representation of Smith was
complete. Smith’s attorney also returned the appellate record
to Smith in the same mailing. Smith acknowledges that his
attorney’s letter was not the first time he learned that his
appeal had been denied, and that his family had informed
him of the denial three months earlier, around May 10, 2014.
After Smith learned that the California Supreme Court had
denied his appeal, Smith sent his attorney a letter the next
day, requesting an update from the attorney and the
immediate return of his appellate record so that Smith could
prepare a federal habeas petition. When Smith did not
receive a timely response to his letter, he filed a complaint
with the California State Bar in June 2014. It appears that
this complaint prompted Smith’s attorney to contact Smith
and return his appellate record in August 2014.
Appearing pro se, Smith filed his habeas petition in the
district court for the Eastern District of California on August
14, 2015, asserting nearly identical claims to those he had
made to the California Supreme Court. California moved to
dismiss Smith’s petition as untimely filed. According to the
State, the one-year statute of limitations allowing for state
prisoners to file federal habeas petitions had expired on June
10, 2015, one year after Smith’s conviction became final.
Smith filed an opposition arguing that he was entitled to
equitable tolling from June 10 to August 15, 2014 and
claimed the statute of limitations did not expire until August
15, 2015, the day after his petition was filed. Smith argued
he was entitled to equitable tolling for that 66-day period
because he had been abandoned by his attorney, did not have

7a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 8 of 66

8

SMITH V. DAVIS

access to his appellate record, and had been diligent in his
attempts to contact his attorney to remedy the situation.
The magistrate judge assigned to Smith’s case in the
district court issued findings and recommended that
California’s motion to dismiss be granted. The magistrate
judge noted that even though Smith did not receive his
appellate record until two months after the time period
prescribed by the statute of limitations had begun to run, he
still had ten months thereafter in which to file his habeas
petition on time. According to the magistrate judge, the
“petitioner has offered no explanation as to why he was
unable to file his federal petition during this ten month
period”; instead it appeared “it was petitioner’s own lack of
diligence during the ten months after he received the
appellate record, and not [the attorney’s] delay in forwarding
the records, that was the cause of petitioner’s untimeliness.”
While the magistrate judge was “convinced that petitioner
acted diligently to obtain his appellate record” from his
attorney, she concluded that “there is no evidence that the
delayed receipt of the file made timely filing impossible.”
The district judge adopted the findings and
recommendations of the magistrate judge and denied the
petition. Smith appealed.
A three-judge panel affirmed the district court, but we
granted rehearing en banc to resolve a conflict within our
cases about the nature of the diligence required for a
petitioner to be eligible for equitable tolling. See Smith v.
Davis, 740 Fed. App’x 131 (9th Cir. 2018), reh’g en banc
granted, 931 F.3d 829 (9th Cir. 2019).
II. Standard of Review
We review de novo the dismissal of a federal habeas
petition as untimely, including “whether the statute of

8a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 9 of 66

SMITH V. DAVIS

9

limitations should be equitably tolled.” Fue v. Biter,
842 F.3d 650, 653 (9th Cir. 2016) (en banc) (quoting
Corjasso v. Ayres, 278 F.3d 874, 877 (9th Cir. 2002)). When,
as here, the district court has not made factual findings “we
accept the facts as alleged by the petitioner” for the purpose
of determining whether, if proven, the allegations are
sufficient to merit equitable tolling. Id. (alteration and
internal quotation marks omitted).
III. Discussion
A. AEDPA and Equitable Tolling
The Antiterrorism and Effective Death Penalty Act of
1996 (“AEDPA”) subjects federal habeas corpus petitions
filed by state prisoners to a one-year statute of limitations.
28 U.S.C. § 2244(d)(1). As relevant here, the time provided
by the statute of limitations begins to run on “the date on
which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such
review.” Id. § 2244(d)(1)(A). 1 The statute does provide that

1

In other circumstances the limitations period could be restarted on:
(B) the date on which the impediment to filing an
application created by State action in violation of the
Constitution or laws of the United States is removed,
if the applicant was prevented from filing by such
State action;
(C) the date on which the constitutional right asserted
was initially recognized by the Supreme Court, if the
right has been newly recognized by the Supreme Court
and made retroactively applicable to cases on
collateral review; or

9a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 10 of 66

10

SMITH V. DAVIS

while “a properly filed application for State post-conviction
or other collateral review . . . is pending,” the time period of
the statute of limitations does not run. Id. § 2244(d)(2). 2
In addition to this statutory tolling provision, the oneyear statute of limitations is also subject to the doctrine of
equitable tolling. Holland v. Florida, 560 U.S. 631, 634
(2010). A petitioner seeking equitable tolling bears the
burden of establishing two elements: “‘(1) that he has been
pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way’ and prevented
timely filing.” Id. at 649 (quoting Pace v. DiGuglielmo,
544 U.S. 408, 418 (2005)).
The parties disagree about how these elements of
equitable tolling should be applied. Smith argues that the
only diligence required of one seeking equitable tolling is
diligence in remedying the impediment to filing caused by
the extraordinary circumstance. He reads Holland’s first
element, “that he has been pursuing his rights diligently,” to
require no more than he pursue his rights diligently up to a
point: the point at which the impediment to filing caused by
the extraordinary circumstances has been abated. As applied
to his case, Smith argues that because he was diligent in
attempting to contact his attorney to obtain his appellate
record after he learned about the denial of his appeal, it is
irrelevant whether he used his time diligently after he
(D) the date on which the factual predicate of the claim
or claims presented could have been discovered
through the exercise of due diligence.
28 U.S.C. § 2244(d)(1)(B)–(D).
2

Smith did not file a habeas petition or otherwise seek collateral
review in the state court.

10a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 11 of 66

SMITH V. DAVIS

11

received that record, and he is entitled to 66 days of equitable
tolling so that he may have a full 365 days, free of any
impediment to filing caused by an extraordinary
circumstance, in which to file his habeas petition. California,
arguing on behalf of the warden, takes an opposite position.
The State argues that because Smith seeks the extraordinary
remedy of equitable tolling of the statute of limitations, he
must prove he was diligent throughout the time from when
the state conviction became final to the filing of the habeas
petition in federal court. Specifically, here, Smith would
need to show that he was diligent in using the time available
to him after he received his file from his attorney until he
filed his habeas petition. The parties also disagree about
what it means for an extraordinary circumstance to prevent
timely filing. Smith argues the relevant question is whether
the extraordinary circumstance prevented timely filing only
while the circumstance existed. Applied to his case, he
argues that his attorney’s failure to return his appellate
record was an extraordinary circumstance and that he could
not prepare his habeas petition without this record, thereby
satisfying the element. California, again, takes the broader
view and argues the question whether an extraordinary
circumstance prevented timely filing requires a fact-specific
analysis to determine whether the extraordinary
circumstance prevented a petitioner acting with reasonable
diligence from filing within the one-year period.
Our cases applying the elements of equitable tolling, and
specifically as it applies to habeas petitions brought under
AEDPA, have not been particularly clear and point in
opposite directions. In 2001, a three-judge panel declined to
apply the stop-clock approach sought by Smith to tolling the
AEDPA statute of limitations, but when an en banc court
decided the case on rehearing, that issue was not addressed.
See Allen v. Lewis, 255 F.3d 798, 801 (9th Cir. 2001), rev’d

11a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 12 of 66

12

SMITH V. DAVIS

en banc, 295 F.3d 1046 (9th Cir. 2002) (finding habeas
petition timely filed even absent tolling). Then, later in 2001,
in an immigration case heard by an en banc court, we took
the approach advocated by Smith and held that equitable
tolling in that case applied in a stop-clock manner so that
“the days during a tolled period simply are not counted
against the limitations period,” without evaluating whether
the petitioner had used his available time diligently. SocopGonzalez v. I.N.S., 272 F.3d 1176, 1195 (9th Cir. 2001) (en
banc). We chose this method over an alternative which
would have required us to take a case-specific approach and
evaluate whether a petitioner exercising ordinary diligence
“reasonably could have been expected to bring a claim
within the remainder of the limitations period” after the
extraordinary circumstances ended. Id. at 1194. We found
the stop-clock method easier to administer, more in line with
Supreme Court precedent on equitable tolling, and
consistent with the policy objectives of statutes of
limitations. Id. at 1195.
In later cases, however, and especially after the Supreme
Court decisions in Pace and Holland, habeas petitioners who
sought to have AEDPA’s statute of limitations equitably
tolled have been required to demonstrate not only
extraordinary circumstances that prevented timely filing
while those circumstances existed but also that the
petitioners, (1) had been diligent in using the time given to
them before and after the extraordinary circumstances were
dispelled, and (2) that the extraordinary circumstances were
the cause of an untimely filing. See, e.g., Fue, 842 F.3d at
656–57; Gibbs v. Legrand, 767 F.3d 879, 884–85 (9th Cir.
2014); Spitsyn v. Moore, 345 F.3d 796, 802 (9th Cir. 2003);
Lott v. Mueller, 304 F.3d 918, 924–25 (9th Cir. 2002). Our
principal effort to combine these holdings failed to provide
the desired clarity. In Gibbs we declared the applicability of

12a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 13 of 66

SMITH V. DAVIS

13

the stop-clock approach to equitable tolling of the AEDPA
statute of limitations. 767 F.3d at 892. However, we
simultaneously acknowledged that “[c]ourts take a flexible,
fact-specific approach to equitable tolling” and required an
evaluation of a petitioner’s diligence before, during, and
after the extraordinary circumstance existed before granting
relief to address the “causation question.” See id. at 885, 892.
It is because our cases issued in the last two decades on
the proper application of equitable tolling point in opposite
directions that we granted rehearing en banc. To determine
which line of cases controls Smith’s eligibility for equitable
tolling (and therefore which party is correct), we need look
no further than the decisions issued by the Supreme Court in
Pace and Holland. But because it also directs our decision,
we first consider how and why courts have historically
provided equitable relief.
B. Traditional Equity Jurisprudence
Equity exists to address specific circumstances and not
to create blanket, prospective rules or applications. See
McQuiddy, 87 U.S. (20 Wall.) at 19 (“There is no artificial
rule on such a subject, but each case as it arises must be
determined by its own particular circumstances.”). As put in
Justice Joseph Story’s Commentaries on Equity
Jurisprudence, because “[i]t is impossible that any code,
however minute and particular, should embrace or provide
for the infinite variety of human affairs, or should furnish
rules applicable to all of them,” equity exists in “every
rational system of jurisprudence” to address the cases in
“which the antecedent rules cannot be applied without
injustice, or to which they cannot be applied at all.” 1 Joseph
Story, Commentaries on Equity Jurisprudence 6–7 (13th ed.
1886); see also The Federalist No. 83 (Alexander Hamilton)
(“[T]he great and primary use of a court of equity is to give

13a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 14 of 66

14

SMITH V. DAVIS

relief in extraordinary cases, which are exceptions to general
rules.”).
Because equity requires a court to deal with the case
before it, complete with its unique circumstances and
characteristics, courts must take a flexible approach in
applying equitable principles. The Supreme Court has been
clear in this requirement, stating “exercise of a court’s equity
powers . . . . must be made on a case-by-case basis.” Baggett
v. Bullitt, 377 U.S. 360, 375 (1964). And when applying
equitable tolling to the AEDPA statute of limitations in
Holland, the Supreme Court stated “[t]he ‘flexibility’
inherent in ‘equitable procedure’ enables courts ‘to meet
new situations [that] demand equitable intervention, and to
accord all the relief necessary to correct . . . particular
injustices.’” 560 U.S. at 650 (quoting Hazel-Atlas Glass Co.
v. Hartford-Empire Co., 322 U.S. 238, 248 (1944)).
But despite the flexibility that equity requires, “courts of
equity must be governed by rules and precedents no less than
the courts of law.” Lonchar v. Thomas, 517 U.S. 314, 323
(1996) (citation omitted). As it applies to equitable tolling,
the Supreme Court has been clear that one such rule that
limits a court’s equitable powers is that “a litigant is entitled
to equitable tolling of a statute of limitations only if the
litigant establishes two elements: ‘(1) that he has been
pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way and prevented
timely filing.’” Menominee Indian Tribe of Wis. v. United
States, 136 S. Ct. 750, 755 (2016) (quoting Holland,
560 U.S. at 649). The first element, requiring diligence on
the part of the litigant, flows from the traditional notion that
“[c]ourts of [e]quity do not sit for the purpose of relieving
parties, under ordinary circumstances, who refuse to
exercise a reasonable diligence or discretion.” 1 Joseph

14a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 15 of 66

SMITH V. DAVIS

15

Story, supra, at 226. Put differently, “equity aids the vigilant,
not those who slumber on their rights.” 1 John Norton
Pomeroy, A Treatise on Equity Jurisprudence as
Administered in The United States of America 393 (1881);
see also Pace, 544 U.S. at 419 (“Equity always refuses to
interfere where there has been gross laches in the
prosecution of rights.” (quoting McQuiddy, 87 U.S.
(20 Wall.) at 19)). The second element comes from the factspecific inquiry equity demands and the flexible remedies
that it provides. For if an extraordinary circumstance is not
the cause of a litigant’s untimely filing, then there is nothing
for equity to address.
C. Congressional Intent and Supreme Court Precedent
The stop-clock method of equitable tolling Smith seeks
runs counter to the traditional notion that “[c]ourts take a
flexible, fact-specific approach to equitable tolling.” Gibbs,
767 F.3d at 885. But he makes two arguments in favor of the
stop-clock approach. First, he claims that applying the stopclock approach is consistent with the expressed intent of
Congress. And second, he claims that the Supreme Court has
already decided that the stop-clock approach applies. We
disagree with both points and address them in turn.
1. Congressional Intent
In asking us to grant him an additional 66 days to file his
habeas petition, the core of Smith’s argument is that because
Congress established a one-year statute of limitations in
AEDPA, 28 U.S.C. § 2244(d)(1), Congress intended for him
to have 365 days, free of any impediment to filing caused by
an extraordinary circumstance, to draft and file his petition
after his conviction was final. Our dissenting colleagues also
advance this as their principal disagreement with the result
we reach today. Smith urges that the stop-clock remedy he

15a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 16 of 66

16

SMITH V. DAVIS

seeks is merely a fulfillment of obvious congressional intent.
But statutes of limitations are not that simple, and such
congressional intent is not so obvious.
As the Supreme Court stated in a case relied on heavily
by the dissent, “[s]tatutes of limitations are primarily
designed to assure fairness to defendants.” Burnett v. N.Y.
Cent. R.R. Co., 380 U.S. 424, 428 (1965). The Supreme
Court has also more recently described statutes of limitations
in general as serving the “basic policies of . . . repose,
elimination of stale claims, and certainty about a plaintiff’s
opportunity for recovery and a defendant’s potential
liabilities.” Rotella v. Wood, 528 U.S. 549, 555 (2000). And
more specifically, the Supreme Court has found “[t]he
AEDPA statute of limitation promotes judicial efficiency
and conservation of judicial resources, safeguards the
accuracy of state court judgments by requiring resolution of
constitutional questions while the record is fresh, and lends
finality to state court judgments within a reasonable time.”
Day v. McDonough, 547 U.S. 198, 205–06 (2006) (quoting
Acosta v. Artuz, 221 F.3d 117, 123 (2d Cir. 2000)). At their
core, “[s]tatutes of limitations require plaintiffs to pursue
diligent prosecution of known claims,” CTS Corp. v.
Waldburger, 573 U.S. 1, 8 (2014) (internal quotation marks
omitted), and “protect defendants against stale or unduly
delayed claims,” John R. Sand & Gravel Co. v. United
States, 552 U.S. 130, 133 (2008).
Requiring a petitioner who files after the deadline
imposed by a statute of limitations has expired to show he
has been diligently pursuing his rights up until the time he
did file his petition does not ignore congressional intent—it
furthers it. The dissent’s contention that the purpose of
AEDPA’s statute of limitations is solely (or primarily) to
protect the time available for the petitioner to file is not one

16a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 17 of 66

SMITH V. DAVIS

17

of the purposes for the statute of limitations the Supreme
Court recognized in Day, see 547 U.S. at 205–06, and
ignores the fact that “AEDPA seeks to eliminate delays in
the federal habeas review process,” Holland, 560 U.S. at
648. As the Supreme Court has held, AEDPA’s goal of
elimination of delays does not preclude the operation of
equitable tolling, but it does refute the notion that the
purpose of the limitations period is to protect petitioners
alone. In fact, though we can speculate that Congress
considered the needs of habeas petitioners as a part of its
calculation before enacting a one-year statute of limitations,
all we may say for certain is that Congress intended for states
to have an affirmative defense against habeas petitions filed
more than one year after a conviction became final. See Day,
547 U.S. at 205.
The dissent would ignore Supreme Court cases
describing statutes of limitations as primarily protecting
defendants—and in the habeas context as ensuring judicial
efficiency and achieving finality for state judgments within
a reasonable time—and elevate an ancillary aim of the
statute of limitations to be its only one. On the other hand,
requiring reasonable diligence through to the moment of
filing protects the rights of all parties without unnecessarily
sacrificing one to the other. Petitioners are able to file habeas
petitions after the limitations period has expired and still
have their claims evaluated on the merits—provided they
were reasonably diligent in using their available time and
showed that an extraordinary circumstance prevented them
from filing within the one-year limitations period. At the
same time, states receive a measure of finality and are not
required to defend against petitions filed after the deadline
by petitioners who have failed to pursue reasonably diligent
prosecution of their claims.

17a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 18 of 66

18

SMITH V. DAVIS

Though we think our rule best serves the animating
purposes of statutes of limitations, we also dispute the notion
that equitable tolling, practiced consistent with governing
precedent, could undermine the intent of a statute. This is
because as the Supreme Court has recognized, Congress
legislates against the backdrop of the equitable powers of
courts and knows of the rebuttable presumption in favor of
equitable tolling for statutes of limitations. See Irwin v.
Dep’t of Veterans Affairs, 498 U.S. 89, 95–96 (1990). In
statutes like AEDPA, where Congress has not acted to
preclude equitable tolling, it intended for equitable tolling to
apply and to be employed consistent with standard equitable
concepts and governing precedent. That is what we do today.
Insofar as Smith believes Congress’s inclusion of
conditions which reset the start of the one-year limitations
period, or the statutory tolling provision in AEDPA, which
both work to the petitioner’s benefit, see 28 U.S.C.
§ 2244(d)(1)(B)–(D), (d)(2), evinces an intent by Congress
to alter the traditional way equitable tolling applies in
AEDPA and to make its application more favorable to him,
he is mistaken. Equitable tolling operates apart from any
statutory provision. The authority by which courts equitably
toll statutes of limitations comes not from any statute but
instead from our exercise of “[t]he judicial Power . . .
extend[ing] to all Cases, in Law and Equity, arising under
th[e] Constitution, [and] the Laws of the United States.” U.S.
Const. Art. III, § 2. When courts apply equitable tolling to a
statute of limitations, they are exercising that independent
judicial power, consistent with governing law and precedent.
This is distinct from any efforts to interpret a statute or to
effect congressional intent behind statutory language.

18a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 19 of 66

SMITH V. DAVIS

19

2. Supreme Court Precedent
Smith’s second argument, also favored by the dissent,
that the stop-clock approach to equitable tolling is required
by Supreme Court precedent, fares no better. We find the
proper application of precedent to favor the flexible,
circumstance-specific approach we adopt today.
In Pace, the Supreme Court addressed equitable tolling
for the first time as it related to the AEDPA statute of
limitations. See 544 U.S. at 418 n.8. At issue was whether
the statute of limitations was tolled while the petitioner’s
untimely, and ultimately procedurally barred, petition for
post-conviction relief was pending in state court. Id. at 410.
Though the case dealt primarily with whether AEDPA’s
statutory tolling provision, 28 U.S.C. § 2244(d)(2), applied
in these circumstances, after it was determined the petitioner
was ineligible for statutory tolling, his claim for equitable
tolling was also addressed. See id. at 418. In addressing the
merits of the equitable tolling claim, the Court stated that to
be eligible for equitable tolling the petitioner was required to
show “(1) that he has been pursuing his rights diligently, and
(2) that some extraordinary circumstance stood in his way.”
Id. The Court held that even if it assumed the pendency of
the untimely state court petition “satisfied the extraordinary
circumstance test,” equitable tolling was nevertheless
unavailable because the petitioner had not shown “the
requisite diligence.” Id. To determine whether the petitioner
“has been pursuing his rights diligently,” the Supreme Court
evaluated the petitioner’s diligence both before and after the

19a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 20 of 66

20

SMITH V. DAVIS

existence of the “extraordinary circumstance” and found it
wanting. 3 See id. at 418–19.
Pace arose in unique circumstances because the state
court conviction became final nearly four years before
AEDPA’s statute of limitations was enacted. However, after
the time period of AEDPA’s statute of limitations had begun
to run in 1996, the petitioner waited nearly seven months
before filing his state court post-conviction relief application
(the pendency of which was assumed to be an “extraordinary
circumstance”), and once that was denied, waited an
additional five months to file for habeas relief in federal
court. Id. at 419. In rejecting Pace’s arguments that he was
entitled to equitable tolling, the Supreme Court emphasized
Pace’s lack of diligence in all time frames, right up to Pace
filing his federal habeas petition. Id. (“Had petitioner
advanced his claims within a reasonable time of their
availability, he would not now be facing any time problem,
state or federal. And not only did petitioner sit on his rights
for years before he filed his [state post-conviction relief]
petition, but he also sat on them for five more months after
3

The Supreme Court’s phrasing of the first element required for
equitable tolling is telling. The Court required Pace to demonstrate that
he “has been pursuing his rights diligently”—not that he “pursued,” “had
pursued,” or “has pursued” his rights diligently. This specific phrasing
indicates a need for a petitioner to show his diligence continued up
through the point of filing his habeas petition in federal court. See The
Chicago Manual of Style ¶¶ 5.132, 5.135 (17th ed. 2017). Compare this
to the second element, which is phrased in the simple past tense—“some
extraordinary circumstance stood in his way”—and it is clear the
Supreme Court’s wording is intentional. Coupled with the Court’s
application of the rule for equitable tolling, which evaluated the
petitioner’s diligence before and after the extraordinary circumstance,
and through the date he filed his federal habeas petition, there is no doubt
that diligence is required through the period up to the actual filing of the
petition to merit equitable tolling. See Pace, 544 U.S. at 419.

20a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 21 of 66

SMITH V. DAVIS

21

his [state] proceedings became final before deciding to seek
relief in federal court.”) (emphasis in original) (footnote
omitted).
In addition to laying the foundation for future AEDPA
equitable tolling decisions, a key aspect of Pace is that the
Supreme Court actually had an opportunity to adopt the stopclock rule Smith now seeks but refused to do so. Had the
Supreme Court applied the stop-clock approach, the
outcome in Pace would have been reversed, and the federal
petition would have been timely filed, as it was indeed filed
on the 363rd “untolled” day of the limitations period, under
the stop-clock approach. 4 But the Supreme Court did not
apply the stop-clock approach and evaluate only Pace’s
diligence in remedying his extraordinary circumstance. The
Court evaluated Pace’s diligence in all time periods,
including those when he was free from impediments to
preparing and filing his habeas petition that had been caused
by any extraordinary circumstance. The Court found his
“lack of diligence precludes equity’s operation.” Id. Bound
4

Pace pleaded guilty to second degree murder in Pennsylvania state
court in February 1986, and in September 1992, the Pennsylvania
Supreme Court denied his appeal. AEDPA was passed on April 24, 1996,
and the newly imposed statute of limitations began to run on April 25,
1996. Pace filed a petition for post-conviction relief in the Pennsylvania
courts on November 27, 1996, which was pending for 974 days, and was
finally denied by the Pennsylvania Supreme Court on July 29, 1999. Pace
then filed a habeas petition in federal district court on December 24,
1999, which was 1337 days after the statute of limitations began to run.
Subtracting the 974 days the state petition for post-conviction relief was
pending from the time it took Pace to file a federal habeas petition after
AEDPA was enacted left potentially 363 “untolled” days had the
Supreme Court chosen to adopt the stop-clock approach and excuse
Pace’s lack of diligence. See 544 U.S. at 410–11. As noted, the Court did
not adopt the stop-clock approach; it noted Pace’s lack of diligence in
filing and affirmed the denial of habeas as untimely.

21a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 22 of 66

22

SMITH V. DAVIS

as we are by the decisions of the Supreme Court, we follow
this same approach today.
The dissent argues that we misunderstand Pace and that
despite the Supreme Court’s explicit evaluation of Pace’s
lack of diligence in preparing and filing his federal habeas
petition both before and after his state petition was denied,
such evaluation of his diligence was unnecessary to the
decision, if it was even considered at all. The dissent believes
that the Supreme Court put little or no weight on Pace’s lack
of diligence while the limitations period was expiring,
including the seven months before he filed his state petition
for post-conviction relief and the five months following the
rejection of the state petition. See Dissent at 54 (“Essentially,
the Court held that laches already barred Pace’s claim when
AEDPA was enacted, so he was entitled to no additional
consideration after he was accorded an additional year.”).
This is a strange way to read a passage in a Supreme Court
opinion that highlighted this exact lack of diligence. See
Pace, 544 U.S. at 419 (“[Pace] also sat on [his rights] for five
more months after his [state] proceedings became final
before deciding to seek relief in federal court.”) (emphasis
in original). Further, the dissent’s supposition that laches
would have barred Pace’s habeas petition (in the preAEDPA regime) simply because it was filed four years after
his conviction was final finds no support in caselaw. See
Brecht v. Abrahamson, 507 U.S. 619, 637 (1993) (“[T]here
is no statute of limitations governing federal habeas, and the
only laches recognized is that which affects the State's ability
to defend against the claims raised on habeas.”) (emphasis
added); see also Day, 547 U.S. at 215 (Scalia, J., dissenting)
(“We repeatedly asserted [before AEDPA] that the passage
of time alone could not extinguish the habeas corpus rights
of a person subject to unconstitutional incarceration.”).
Simply put, the dissent’s reading of Pace is too narrow, and

22a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 23 of 66

SMITH V. DAVIS

23

we do not adopt such a limited view of the only Supreme
Court case in which the Supreme Court conclusively
determined a habeas petitioner’s eligibility for equitable
tolling.
It is clear to us that the Court did factor Pace’s lack of
diligence after the statute of limitations was enacted,
including his failure to pursue his rights diligently after the
extraordinary circumstance abated, into its decision to deny
him equitable tolling—a holding as to which no justice
dissented. What relative importance this held when
combined with Pace’s years-long pre-AEDPA delay, and his
additional seven month delay after the statute was enacted,
we cannot say with certainty, but we know it was important
enough for the Court to mention and consider in its opinion.
But whatever relative weight Pace’s various periods of nondiligence carried, we know for sure that the Supreme Court
did not limit its diligence analysis, as the dissent would have
us do, to the question in Socop-Gonzalez, whether Pace had
been diligent in bringing about the end of his extraordinary
circumstance. See 272 F.3d at 1196. If it had, its decision
would have reversed, rather than affirmed, the judgment
which denied the writ.
The Supreme Court next considered equitable tolling for
habeas petitions in Holland, where it took an additional step
that weighs against the application of the stop-clock
approach here. In Holland, the Court added an explicit
causation requirement to the rule for equitable tolling
previously stated in Pace. See Holland, 560 U.S. at 649
(“[A] ‘petitioner’ is ‘entitled to equitable tolling’ only if he
shows ‘(1) that he has been pursuing his rights diligently,
and (2) that some extraordinary circumstance stood in his
way’ and prevented timely filing.” (emphasis added)
(quoting Pace, 544 U.S. at 418)). As we have previously

23a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 24 of 66

24

SMITH V. DAVIS

described it, whether an impediment caused by extraordinary
circumstances prevented timely filing is a “causation
question” that requires courts to evaluate a petitioner’s
diligence in all time periods—before, during, and after the
existence of an “extraordinary circumstance”—to determine
whether the extraordinary circumstance actually did prevent
timely filing. See Gibbs, 767 F.3d at 892. Though the
causation requirement announced in Holland modified the
extraordinary circumstance prong of the test, it nevertheless
speaks to the diligence required by a petitioner seeking
equitable tolling. This is because the Supreme Court held
that equitable tolling is not available whenever there is an
extraordinary circumstance that impaired the litigant for
some portion of the limitations period. It may apply only
when an extraordinary circumstance prevented a petitioner
from filing before the deadline expired. The only way for a
court to evaluate whether an extraordinary circumstance
caused the untimely filing is to examine and assess the facts
of the case to determine whether a petitioner acting with
reasonable diligence could have filed his claim, despite the
extraordinary circumstance, before the limitations period
expired. This stands in direct contrast to the position we
adopted in Socop-Gonzalez. See 272 F.3d at 1194. 5
The strongest argument Smith can make against the
weight of this precedent is based on the earlier case of
Burnett v. New York Central Railroad Company, 380 U.S.
424 (1965), which we cited in Socop-Gonzalez when

5

We also note that, in Holland, as it had before in Pace, the Supreme
Court evaluated the petitioner’s diligence after the extraordinary
circumstance was dispelled and did not apply a rigid stop-clock rule,
though admittedly, this did not impact the outcome of the case. See
560 U.S. at 653.

24a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 25 of 66

SMITH V. DAVIS

25

adopting a stop-clock approach to equitable tolling, see
272 F.3d at 1195–96.
In Burnett a plaintiff timely filed a Federal Employers’
Liability Act (“FELA”) personal injury claim against his
employer in state court, seeking compensation under the
federal law. The federal claim was subject to a three-year
statute of limitations. Ultimately, the state court dismissed
the claim for improper venue under state law, and the
plaintiff refiled in federal court eight days later but after the
statute of limitations had expired. Burnett, 380 U.S. at 424–
25.
Addressing the situation, the Supreme Court equitably
tolled the statute of limitations and allowed the plaintiff’s
suit to proceed in federal court. Id. at 434–35. The Supreme
Court commented on the plaintiff’s diligence in bringing the
claim in state court and treated that diligence as a
prerequisite for equitable tolling. See id. at 429 (“Petitioner
here did not sleep on his rights . . . .”). The Court also noted
the plaintiff’s diligence in refiling his claim in federal court
eight days after his state court suit was dismissed, but this
diligence notwithstanding, the Court was clear that it was
tolling the limitations period for the entire period the state
court claim had been pending and not merely for a
“reasonable time.” Id. at 435–36. This holding allowed the
plaintiff to use whatever time remained of the limitations
period when he filed in state court to refile in federal court,
regardless of his diligence in refiling the claim. The
concurrence by Justices Douglas and Black was explicit that
the decision in Burnett to extend the limitations period
automatically, rather than evaluate the plaintiff’s diligence
in refiling in federal court, ran counter to “long-established”
and “familiar” equitable principles. See id. at 437 (Douglas,
J., concurring). We acknowledge that Burnett, absent

25a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 26 of 66

26

SMITH V. DAVIS

subsequent development by the Supreme Court, would seem
to direct a stop-clock approach that allows a plaintiff who
qualifies for equitable tolling through diligence to extend the
limitations period automatically by the full period of time
that the extraordinary circumstance existed, but Pace and
Holland were such developments.
Whatever the Court’s reason in Burnett for veering from
“long-established” and “familiar” applications of equity,
modern Supreme Court cases citing Burnett have
emphasized the diligence of the petitioner in Burnett, not the
stop-clock application of equitable tolling. See, e.g., Irwin,
498 U.S. at 96 & n.3 (characterizing Burnett as a case “where
the claimant has actively pursued his judicial remedies”);
Int’l Union of Elec., Radio & Mach. Workers v. Robbins &
Myers, Inc., 429 U.S. 229, 238 (1976) (quoting Burnett’s
statement that “[p]etitioner here did not sleep on his rights”);
Am. Pipe & Constr. Co. v. Utah, 414 U.S. 538, 558 (1974)
(describing Burnett as involving a “suit in a state court
within the three-year time limitation” and being refiled in
federal court “[i]mmediately after the dismissal” in state
court for improper venue). And none of these cases
permitted equitable tolling where a litigant had not been
persistent in pursuing his rights diligently. But most
tellingly, when the Supreme Court explicitly established the
two required elements of equitable tolling in Pace and
Holland—diligence and causation—the Court did not apply
the stop-clock approach, and citations to Burnett were
nowhere to be found. See Holland, 560 U.S. at 634; Pace,
544 U.S. at 418. And since Pace was decided, the only
citation to Burnett by a Supreme Court majority 6 was in

6

Burnett was recently cited in a solo dissent in Rotiske v. Klemm,
but the citation served to distinguish equitable tolling from the “fraud-

26a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 27 of 66

SMITH V. DAVIS

27

Lozano v. Montoya Alvarez, where the Court cited Burnett,
not for its stop-clock rule, but for the notion that statutes of
limitations are “designed to protect defendants,” an
argument counter to the one Smith and the dissent advance
here. 572 U.S. 1, 14 (2014) (quoting Burnett, 380 U.S.
at 428).
All of this is to say that any attempt by Smith to claim
Burnett dictates the outcome of this case and excuses his lack
of diligence after he received his files from his attorney is
unavailing. Smith’s argument ignores the fact that, even in
Burnett, the plaintiff exercised diligence consistent with the
rule we announce today, and more importantly, it ignores
recent Supreme Court cases that have rejected the stop-clock
approach and instead meticulously examined petitioner
diligence when determining whether equitable tolling was
warranted.
Smith’s citation to the recent case of Artis v. District of
Columbia, 138 S. Ct. 594 (2018), likewise does not support
the outcome he seeks. For there, the Supreme Court was
asked to decide the scope of the statutory tolling provision
contained in 28 U.S.C. § 1367, the federal supplemental
jurisdiction statute, and accordingly, was not asked to decide
how to apply equitable tolling or determine whether the
plaintiff had exercised any measure of diligence. See Artis,
138 S. Ct. at 600–01 (describing the case as “resolv[ing] the
division of opinion among State Supreme Courts on the
proper construction of § 1367(d)”).
Artis addressed a narrow question, whether
section 1367(d)—not the doctrine of equitable tolling—
based discovery rule” and does not provide support to Smith’s arguments
here. See 140 S. Ct. 355, 363–64 (2019) (Ginsburg, J., dissenting).

27a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 28 of 66

28

SMITH V. DAVIS

functioned to suspend state periods of limitations for the
entire time state claims were pending in federal court, plus
thirty days, or whether the law provided merely a thirty-day
grace period for a litigant to refile in state court after a
federal court declined supplemental jurisdiction over the
state-law claim. Id. The answer to this question has nothing
to do with the issue we address today. The Supreme Court’s
decision that the proper way to read section 1367(d) is to
suspend the running of the statute of limitations, and not
merely to grant litigants a 30-day grace period, was based on
a plain text reading of section 1367(d), not principles of
equity. See id. at 603–04. However, in rendering its decision,
the Court noted that it commonly uses the “terms ‘toll’ and
‘suspend’ interchangeably,” id. at 601–02, and that prior
decisions of the Court had described equitable tolling as
“paus[ing] the running of” a statute of limitations, id. at 602
(quoting CTS Corp. v. Waldburger, 573 U.S. 1, 9 (2014)). It
is based on these statements that Smith and the dissent argue
Artis supports the position that Smith is entitled to equitable
tolling even if he did not use the time available to him
diligently after he received his appellate record from his
attorney.
Smith asks us to read the statement in Artis that equitable
tolling may serve to pause the period of a statute of
limitations as excusing him from the requirements for
equitable tolling explicitly described in Pace and Holland.
Artis does not support such an argument. Artis had almost
nothing to say about equitable tolling, and what it did say did
not alter the rule that “a petitioner is entitled to equitable
tolling only if he shows (1) that he has been pursuing his
rights diligently, and (2) that some extraordinary
circumstance stood in his way and prevented timely filing.”
Holland, 560 U.S. at 649 (internal quotation marks omitted).
The cases Artis cited for the idea that equitable tolling

28a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 29 of 66

SMITH V. DAVIS

29

pauses, or suspends, a statute of limitations do not suggest
otherwise and do not support an application of equitable
tolling in a circumstance where a litigant has not diligently
pursued his rights before, during, and after the existence of
an extraordinary circumstance. 7

7

Artis characterized CTS Corp. as “describing equitable tolling as
‘a doctrine that pauses the running of, or ‘tolls’ a statute of limitations.’”
Artis, 138 S. Ct. 602 (quoting CTS Corp., 573 U.S. at 9). This is true, but
CTS Corp. is explicit that equitable tolling applies only “when a litigant
has pursued his rights diligently but some extraordinary circumstance
prevents him from bringing a timely action.” 573 U.S. at 9 (quoting
Lozano v. Montoya Alvarez, 572 U.S. 1, 10 (2014)). Artis also quotes
United States v. Ibarra, which predates Pace and Holland, but states,
“[p]rinciples of equitable tolling usually dictate that when a time bar has
been suspended and then begins to run again upon a later event, the time
remaining on the clock is calculated by subtracting from the full
limitations period whatever time ran before the clock was stopped.”
502 U.S. 1, 4, n.2 (1991) (per curiam). Ibarra addressed when the
government’s 30-day window to appeal district court orders in criminal
cases began and did not involve an application of equitable tolling. It
thus provides little guidance on how to determine eligibility for equitable
tolling, but the opinion cited a Seventh Circuit opinion by Judge Posner,
Cada v. Baxter Healthcare Corporation, 920 F.2d 446 (7th Cir. 1990),
as standing for the “principles of equitable tolling.” Ibarra, 502 U.S. at
4, n.2. Cada is explicit that equitable tolling is available only when the
plaintiff exercises “all due diligence,” including the diligence required to
“bring suit within a reasonable time after” an extraordinary circumstance
ends and that the period of limitations is not tolled automatically.
920 F.2d at 451, 453; id. at 452 (“We do not think equitable tolling
should bring about an automatic extension of the statute of limitations
by the length of the tolling period or any other definite term. It is, after
all, an equitable doctrine. It gives the plaintiff extra time if he needs it.
If he doesn’t need it there is no basis for depriving the defendant of the
protection of the statute of limitations.” (citation omitted)); see also
Socop-Gonzalez, 272 F.3d at 1194 (citing Cada as rejecting a stop-clock
approach that ignored a lack of diligence after the removal of the
extraordinary circumstance that impeded filing).

29a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 30 of 66

30

SMITH V. DAVIS

Artis did not involve a determination of whether a
litigant was eligible for tolling (equitable or otherwise) and
addressed no more than the mechanical calculation of the
new litigant-specific limitations deadline, after a court
makes the determination that the litigant qualifies for tolling.
See Artis, 138 S. Ct. at 598–99. The case sheds no light on
the underlying question of which litigants are eligible for
such extended limitations deadlines. In cases involving
equitable tolling, Pace and Holland still govern that inquiry.
At most, the effect of Artis’s observation that equitable
tolling may serve to “pause[] the running of . . . a statute of
limitations,” id. at 602, was to confirm that the maximum
additional time, beyond the period of limitations, available
to a litigant otherwise eligible for equitable tolling, is equal
to the amount of time that the extraordinary circumstance
that impeded timely filing existed. As far as we know, this
was not in dispute.
D. The Proper Rule of Equitable Tolling of Statutes of
Limitations
In view of the historic practice of courts of equity and
modern Supreme Court precedent governing equitable
tolling, we make two related holdings. First, for a litigant to
demonstrate “he has been pursuing his rights diligently,”
Holland, 560 U.S. at 649, and thus satisfies the first element
required for equitable tolling, he must show that he has been
reasonably diligent in pursuing his rights not only while an
impediment to filing caused by an extraordinary
circumstance existed, but before and after as well, up to the
time of filing his claim in federal court. This rule is in accord
with the traditional concept that equity requires diligence
and is also consistent with recent Supreme Court practice.
Though we today reject the stop-clock approach we took in
Socop-Gonzalez for evaluating when a petitioner must be

30a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 31 of 66

SMITH V. DAVIS

31

diligent, 8 this does not alter what it means for a petitioner to
exercise diligence. On that issue the rule remains that “[t]he
diligence required for equitable tolling purposes is
‘reasonable diligence,’ not ‘maximum feasible diligence.’”
Holland, 560 U.S. at 653 (citations omitted). In determining
whether reasonable diligence was exercised courts shall
“consider the petitioner’s overall level of care and caution in
light of his or her particular circumstances,” Doe v. Busby,
661 F.3d 1001, 1013 (9th Cir. 2011), and be “guided by
‘decisions made in other similar cases . . . with awareness of
the fact that specific circumstances, often hard to predict in
advance, could warrant special treatment in an appropriate
case.’” Fue, 842 F.3d at 654 (quoting Holland, 560 U.S.
at 650). What we make clear is that it is not enough for a
petitioner seeking an exercise of equitable tolling to attempt
diligently to remedy his extraordinary circumstances; when
8

As mentioned previously, Socop-Gonzalez rested its decision to
apply equitable tolling in a manner that ignored a litigant’s diligence
after remedying an extraordinary circumstance on three factors:
(1) congressional intent; (2) Supreme Court precedent; and (3) ease of
administration. 272 F.3d at 1195. Today we explicitly reject the first two
rationales and hold that diligence only up to the point of the removal of
the impediment caused by the extraordinary circumstances is not enough
to merit equitable tolling. In 2001, we did not have the benefit of the
Supreme Court’s decisions in Pace and Holland, which undermine the
continued validity of the first two reasons we gave for adopting the stopclock approach. This leaves just the third rationale: ease of
administration. Standing alone, whether the stop-clock approach is easier
to administer than the rule we announce today is debatable but ultimately
of no consequence. Pace and Holland illustrate that in application of the
extraordinary remedy of equitable tolling, individual, and perhaps
painstaking, analysis of the specific case overcomes considerations of
convenience. If ease of administration is indeed a better policy, it is one
for Congress, not the courts, to adopt. But we have no doubt that district
courts will be able to apply equitable tolling consistent with the
traditional concepts of equity, Supreme Court precedent, and the rule we
announce today.

31a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 32 of 66

32

SMITH V. DAVIS

free from the extraordinary circumstance, he must also be
diligent in actively pursuing his rights. 9

9

Contrary to the belief of the dissent we make no holding “that
364 days is always too long a period within which to prepare a federal
habeas petition.” Dissent at 65. Nor do we announce a rule that any time
long stretches of time pass without a petitioner acting on a habeas
petition is it necessarily a situation where a petitioner failed to exercise
reasonable diligence. See Huizar v. Carey, 273 F.3d 1220, 1224 (9th Cir.
2001) (finding a petitioner’s wait of 21 months before seeking an update
on his petition from a state court was an exercise of reasonable
diligence).
The dissent’s characterization of our court’s application of equitable
tolling as based on such arbitrary considerations as “the length of each
chancellor’s foot,” Dissent at 41, not only disserves our judiciary, it
ignores our safeguard against such arbitrariness: our standard of review
in habeas cases is de novo. See ante at 8–9. Such characterization is
particularly inept here where the magistrate judge carefully weighed the
evidence and fully explained her decision.
We also find the dissent’s criticism that today’s decision provides
no guidance for future district courts or three-judge panels to decide
cases involving requests for equitable tolling misplaced. As an initial
matter, our precedents, Socop-Gonzalez notwithstanding, already require
courts to go through the general diligence analysis we outline today. See
Gibbs, 767 F.3d at 892. And as discussed previously, one of the benefits
of equitable doctrines is that they allow courts to fashion remedies
tailored to the circumstances of the case, within the bounds of governing
precedent. Further, the evaluation of diligence is hardly new territory for
trial courts. For example, in evaluating motions for new criminal trials
or relief from civil judgments, courts must regularly evaluate whether
newly discovered evidence could have been discovered earlier with
reasonable diligence. See Fed. R. Civ. P. 60(b)(2); United States v.
Harrington, 410 F.3d 598, 601 (9th Cir. 2005). And finally, both our
approach and the one favored by the dissent, require courts to evaluate
whether a petitioner, who is imprisoned and usually filing pro se,
exercised the required diligence. The difference between our rule and the
dissent’s, as it relates to a court’s evaluation of a petitioner’s diligence,

32a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 33 of 66

SMITH V. DAVIS

33

Second, and relatedly, it is only when an extraordinary
circumstance prevented a petitioner acting with reasonable
diligence from making a timely filing that equitable tolling
may be the proper remedy. This rule aligns with the flexible
and fact-specific nature of equity and is directed by Supreme
Court precedent. To be clear, this rule does not impose a
rigid “impossibility” standard on litigants, and especially not
on “pro se prisoner litigants—who have already faced an
unusual obstacle beyond their control during the AEDPA
limitation period.” Fue, 842 F.3d at 657 (quoting Sossa v.
Diaz, 729 F.3d 1225, 1236 (9th Cir. 2013)). In evaluating
whether an “extraordinary circumstance stood in [a
petitioner’s] way and prevented timely filing,” a court is not
bound by “mechanical rules” and must decide the issue
based on all the circumstances of the case before it. Holland,
560 U.S. at 649–50 (internal quotation marks omitted).
E. Equitable Tolling Applied to Smith’s Petition
Accepting Smith’s allegations as true, and assuming that
his attorney’s failure to contact him for five months after his
state appeal was denied 10 was sufficiently egregious so that
it could qualify as an “extraordinary circumstance” that
created an impediment to filing under the second required
element for equitable tolling, we nevertheless conclude
Smith has not exercised the necessary diligence to satisfy the

is that one requires an evaluation of a petitioner’s diligence across the
whole time involved, and the other conducts the same inquiry but for just
part of the time.
10
This includes three months after the California Supreme Court
denied Smith’s appeal but before the decision was finalized, and an
additional 66 days after the decision was final and the time period of the
statute of limitations began to run.

33a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 34 of 66

34

SMITH V. DAVIS

first element and may not have the statute of limitations
tolled to excuse his late filing.
Smith’s appeal was denied by the California Supreme
Court on March 12, 2014 and became final on June 10, 2014.
According to Smith, he learned from his family that his
appeal had been denied on May 10, 2014, and he received
his appellate record from his attorney on August 15, 2014.
Smith’s habeas petition was filed in the district court on
August 14, 2014, 364 days after Smith received his appellate
record and 65 days after the limitations period expired.
Smith’s habeas petition was a 48-page document consisting
of 20 pages of facts and background and 28 pages of legal
analysis and argument. The petition consisted almost
exclusively of items written previously by Smith’s courtappointed attorney and submitted in briefs to the California
appellate courts. The facts and background were copied with
only minor alterations from Smith’s brief to the California
Court of Appeal. 11 And the legal argument section was taken
nearly verbatim from the legal arguments previously
submitted by Smith to the California Supreme Court, though
Smith omitted from his federal habeas petition a challenge
to jury instructions he had raised to the state supreme court.
In the district court, after California moved to dismiss
Smith’s petition as untimely, Smith filed an opposition brief
and supporting declaration. In his opposition papers Smith
argued that he was diligent in attempting to maintain contact
with his attorney and in seeking the return of his case file
after he learned his California Supreme Court appeal had
11
Smith’s brief to the California Supreme Court is part of the record
before us, but his brief to the California Court of Appeal is not. However,
we may take judicial notice of this document and do so. See Trigueros v.
Adams, 658 F.3d 983, 987 (9th Cir. 2011).

34a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 35 of 66

SMITH V. DAVIS

35

been denied. Citing Gibbs, Smith acknowledged that our
cases have evaluated “[d]iligence after an extraordinary
circumstance is lifted” 12 in making determinations about
equitable tolling. But Smith alleged no facts, argued no
circumstances, and made no claim that he had been diligent
in preparing his habeas petition after he had received his file
from his attorney. The only diligence with which Smith
claimed to have acted was in contacting his attorney to
remedy the extraordinary circumstance that he lacked his
case file. As we have now held, this was not enough.
The problem with Smith’s request for equitable tolling is
not simply that he took 364 days after receiving his case file
to file his habeas petition. We have no trouble imaging a
circumstance where a petitioner is impeded by extraordinary
circumstances from working on a habeas petition for two
months, but after those circumstances are dispelled, uses the
next 364 days diligently, files his petition, and has the entire
two months during which the extraordinary circumstances
existed equitably tolled. What reasonable diligence would
look like in those circumstances varies based on the specifics
of the case, but in every instance reasonable diligence
seemingly requires the petitioner to work on his petition with
some regularity—as permitted by his circumstances—until
he files it in the district court. The problem with Smith’s
12

Smith also noted that in Gibbs we stated a lack of diligence after
an extraordinary circumstance ended was “not alone determinative” in
deciding eligibility for equitable tolling. See 767 F.3d at 892. But despite
this statement in Gibbs, Smith was on notice by other statements in Gibbs
that we would consider his diligence after the extraordinary circumstance
ended as part of our overall assessment to determine whether he was
entitled to equitable tolling. See id. When responding to the State’s
motion to dismiss, Smith had the necessary notice and incentives to
claim he had diligently pursued his rights after he received his case file
from his attorney, but he did not do so.

35a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 36 of 66

36

SMITH V. DAVIS

request for equitable tolling is that when given the
opportunity to explain how he had used his time diligently
after receiving his file from his attorney and thus merited
equitable tolling, Smith made no allegation or claim in his
opposition to the motion to dismiss or his supporting
declaration that he had acted diligently but had not been able
to file earlier.
Nor is the only trouble with Smith’s request for equitable
tolling the fact that his habeas petition consisted almost
exclusively of materials that had been prepared and filed in
state courts years earlier. We agree with the Seventh Circuit
that when a petitioner acts diligently to prepare a habeas
petition, it matters not if he recycles arguments previously
made by counsel to state courts. See Socha v. Boughton,
763 F.3d 674, 688 (7th Cir. 2014). But again, the petitioner
must act with diligence in preparing his petition to warrant
equitable tolling; Smith has not alleged that he was diligent
in this manner.
In the absence of any claim by Smith that he was diligent
in preparing his habeas petition after he received his case
file, we fail to see how Smith exercised reasonable diligence
and why, if he had, Smith would have been unable to file a
habeas petition in the district court before the time period of
the statute of limitations expired on June 10, 2015. The
district court correctly held Smith had not met the criteria for
equitable tolling and denied Smith’s habeas petition as
untimely.
AFFIRMED.

36a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 37 of 66

SMITH V. DAVIS

37

BERZON, Circuit Judge, joined by THOMAS, Chief Judge,
and MURGUIA, WATFORD, and HURWITZ, Circuit
Judges, dissenting:
Anthony Smith’s state court convictions became final on
June 10, 2014. 1 For the sixty-six days that followed, Smith’s
former attorney failed to deliver Smith’s appellate record to
him despite repeated requests. Smith filed his federal
petition for habeas corpus 364 days after his record arrived.
The Antiterrorism and Effective Death Penalty Act
(“AEDPA”) contains a statute of limitations of 365 days for
the filing of a federal petition for habeas corpus challenging
a state conviction. 28 U.S.C. § 2244(d). Congress could, of
course, have opted for more time or less. But it determined
that 365 days is the number of days reasonably required for
habeas petitioners to prepare their petitions. In doing so,
Congress required habeas petitioners to exercise a certain
level of diligence: the diligence required to file within
365 days.
Holland v. Florida held that Congress intended that the
doctrine of equitable tolling apply to this 365-day limitations
period. 560 U.S. 631, 645 (2010). To obtain equitable
tolling, a habeas petitioner must show “‘(1) that he has been
pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way’ and prevented
timely filing.” Id. at 649 (quoting Pace v. DiGuglielmo,
544 U.S. 408, 418 (2005)). The majority today holds that
under this standard, if an extraordinary circumstance existed
for a part (or all) of the 365 days Congress prescribed as the
period available for preparing a federal habeas petition, the
1

Smith was convicted of one count of residential burglary, two
counts of robbery, and one count of forcible oral copulation.

37a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 38 of 66

38

SMITH V. DAVIS

petitioner may have less than 365 days to complete the
petition, based on a free-floating judicial determination of
whether, notwithstanding the impediment, the petitioner was
sufficiently diligent during the less-than-365 day period
available to him. 2
The central problem with the majority’s approach
concerns its substitution of its own determination of the time
needed to file for Congress’s clear prescription that
petitioners are to be given 365 days to draft and file a federal
habeas petition. In the majority’s view, if equitable tolling is
invoked, no deference is owed to Congress’s determination
of the amount of time reasonably required to prepare a
petition. 3 For the majority, “the judicial Power” furnishes
authority to impose, on an ad hoc basis, individual judges’
own views as to the time it should take to prepare and file a
habeas petition. Maj. Op. at 18 (citing U.S. Const. Art. III,
§ 2).
In the absence of a statute of limitations, of course,
judges have no choice but to draw discretionary lines as to
when a particular claim should be time-barred. 4 But where a
2

The majority assumes that Smith’s attorney’s wrongful
withholding of his records constituted an extraordinary circumstance,
and so we do as well. Majority Opinion (“Maj. Op.”) at 33.
3

The majority views the congressionally established limitations
period as a one-way ratchet where equitable tolling is at issue, such that
judges can provide less total time than the statutory limitations period
once the time covered by the extraordinary circumstance is subtracted
but not more. See Maj. Op. at 30. On this view, the congressional
determination of the time needed to file merits deference when equitable
relief is to be denied but not when it is to be granted. We are not told
why that should be the case.
4

That is how the laches doctrine operates. See, e.g., Int’l Tel. & Tel.
Corp. v. Gen. Tel. & Elecs. Corp., 518 F.2d 913, 926 (9th Cir. 1975).

38a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 39 of 66

SMITH V. DAVIS

39

legislature has determined the time it should reasonably take
to file an initial pleading, there is no need for such ad hoc,
inevitably inconsistent, decision-making, and so no excuse
for it. Here, Congress has spoken—the period of time a
petitioner may devote to preparing a federal habeas petition
is one year, or 365 days. As one of our colleagues put it some
time ago with regard to the issue before us, “[a] year is a year
is a year.” Lott v. Mueller, 304 F.3d 918, 927 (9th Cir. 2002)
(McKeown, J., concurring). The majority’s insistence to the
contrary notwithstanding, we are bound to respect
Congress’s policy judgment to the degree that we can even
when applying an equitable doctrine.
This fundamental precept was at the core of this Court’s
carefully considered en banc opinion in Socop-Gonzalez v.
I.N.S., 272 F.3d 1176 (9th Cir. 2001). There, we rejected an
interpretation of equitable tolling’s diligence requirement
which would have empowered judges to deny equitable
relief whenever they believed that a claimant reasonably
could have filed faster—that is, the version of equitable
tolling the majority now enthusiastically adopts. Id. at 1194–
95. Socop-Gonzalez held instead that where a petitioner is
prevented from timely filing because an extraordinary
circumstance stood in his way for part of the limitations
period and is otherwise eligible for equitable tolling, he is
afforded the time he lost during the extraordinary
circumstance. Id. at 1195–96. That is, the extraordinary
circumstance “stops the clock until the occurrence of a later
event that permits the statute to resume running.” 5 Id.
5

As I discuss later, the Supreme Court has recently explained that
this understanding of what “tolling” means comports with both the
ordinary legal meaning of the word of the word “tolling” and its use in
the equitable tolling context. Artis v. District of Columbia, 138 S. Ct.
594, 601–02 (2018).

39a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 40 of 66

40

SMITH V. DAVIS

at 1195. The stop-clock approach to equitable tolling, as we
said in Socop-Gonzalez, is more respectful of congressional
intent, more compatible with the common understanding of
“tolling” and with Supreme Court precedent, and more
sensitive to the realities of judicial administration than one
which depends on the judge’s “subjective view of how much
time a plaintiff reasonably needed to file suit.” Id. at 1195–
96.
After Socop-Gonzalez, some opinions of this court
muddled Socop-Gonzalez’s clarity by focusing on whether a
petitioner could have filed faster than he did after an
extraordinary circumstance had abated in deciding whether
a statute of limitations was equitably tolled. See Gibbs v.
Legrand, 767 F.3d 879, 890–91 (9th Cir. 2014). Gibbs noted
the tension between examining a petitioner’s postextraordinary-circumstance diligence in the abstract and
Socop-Gonzalez’s teaching that “courts should not take it
upon themselves to decide how much time a claimant needs
to file a federal case.” Id. at 891–92. Attempting to reconcile
these two strains, Gibbs explained that equitable tolling’s
diligence requirement ensures that the allegedly
extraordinary circumstance actually prevented timely
filing—that is, helps establish causation—but does not invite
judges to substitute a judicial determination of the time it
should take to file for a legislative one. Id. at 892.
Starting anew and purporting to return to “principles of
traditional equity,” the majority opinion overrules SocopGonzalez and holds that equitable tolling may be denied
whenever a judge concludes—on an entirely ad hoc basis—
that a claimant reasonably could have filed his lawsuit faster
than he did once the extraordinary circumstance was
removed. Maj. Op. at 6. The majority’s analysis—and its
excuse for overruling Socop-Gonzalez—rests in large part

40a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 41 of 66

SMITH V. DAVIS

41

on its limited understanding of equity’s history, portraying
that history as establishing little more than the proposition
that equity is flexible and fact-specific. That proposition is
accurate, as far as it goes. But the majority’s version of
“traditional equity” is incomplete, disregarding a strong and
competing development in American equity jurisprudence:
the effort to restrain the discretion courts of equity once
wielded and to roundly reject a view in which equity depends
on “the length of each chancellor’s foot.” Lonchar v.
Thomas, 517 U.S. 314, 323 (1996) (citing 1 J. Story,
Commentaries on Equity Jurisprudence 16 (13th ed. 1886)).
With regard to equitable tolling in particular, that restraint
has been effectuated in large part through respect for
legislative determinations of the total period of time a
plaintiff or petitioner should have to prepare initial
pleadings. By brushing aside any need to incorporate that
legislative determination into its equitable tolling analysis,
and by substituting a pure chancellor’s-foot approach to
determining whether the plaintiff or petitioner worked
quickly enough, the majority flaunts the understanding of
equity jurisprudence that has developed in this country since
its founding.
Incorporating its one-sided understanding of the place of
judicial discretion in American equity jurisprudence, the
majority opinion goes on to misapply or disregard the three
considerations on which Socop-Gonzalez rested its stopclock approach—congressional intent, Supreme Court
precedent, and administrability. As to Supreme Court
precedent in particular, the majority insists that that
precedent has fundamentally changed since SocopGonzalez. It decidedly has not.
At the end of its opinion, the majority applies its new
non-standard to the facts of this case. In doing so, the

41a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 42 of 66

42

SMITH V. DAVIS

majority makes clear that its talk of “the fact-specific inquiry
equity demands” serves largely to obfuscate an approach that
plucks from the air—or measures by the chancellor’s foot—
the conclusion that, despite a congressionally-enacted 365day limitations period, 364 days is too long a period within
which to prepare a habeas petition. With Socop-Gonzalez
abandoned, such arbitrary judgments, disregarding both the
legislative judgment about the total time period that should
be available to file a lawsuit and the facts of the particular
case, will come to predominate applications of equitable
tolling.
I. American Equity Jurisprudence and Judicial Restraint
The majority begins its analysis with a discussion of
“Traditional Equity Jurisprudence,” purporting to undertake
a historical analysis. Maj. Op. at 13–15. I therefore begin as
well with some history concerning equity jurisprudence, but
with an emphasis absent from the majority’s approach—the
care taken in this country to ensure that judicial exercise of
its equitable authority comfortably coexists with closely
related legislative enactments. This discussion will prove
helpful, I hope, in explaining why the majority’s paean to
principles of traditional equity offers no reason to abandon
Socop-Gonzalez’s well-considered en banc holding.
Equitable tolling dates from an era in English history
when the separation of legislative and judicial power was
incomplete. Until the Glorious Revolution of 1688, the
Crown “had pretensions to independent legislative
authority,” and the authority of English judges derived from
their status as agents of the Crown. John F. Manning,
Textualism and the Equity of the Statute, 101 Colum. L. Rev.
1, 36–37 (2001). Such judges would not have had any sense
that their application of principles of equity might “usurp[]
the responsibilities of a different branch” of government. Id.

42a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 43 of 66

SMITH V. DAVIS

43

at 42–43, 53; see also McQuiggin v. Perkins, 569 U.S. 383,
409–10 (2013) (Scalia, J., dissenting).
In the American system, by contrast, fears of judicial
usurpation of legislative authority have driven equity
jurisprudence from the first. During the debates over the
Constitution’s ratification, prominent anti-federalists
objected to Article III’s extension of the judicial power to
cases in equity on precisely such grounds. “It is a very
dangerous thing to vest in the same judge power to decide
on the law, and also general powers in equity; for if the law
restrain him, he is only to step into his shoes of equity, and
give what judgment his reason or opinion may dictate.”
Letters from the Federal Farmer No. III (Oct. 10, 1787), in 2
The Complete Anti-Federalist 234, 244 (H. Storing ed.
1981). In particular, the anti-federalists worried that the
grant of powers in equity would enable judges to avoid
“being confined to the words or letter” of the Constitution or
of legislative enactments. Brutus No. XI (Jan. 31, 1788), in
id. at 417, 419.
Those who favored ratification of the Constitution
shared these concerns to some extent. They responded to
critiques of federal equity jurisdiction by emphasizing that
Article III judges would be “bound down by strict rules and
precedents, which serve to define and point out their duty in
every case that comes before them.” The Federalist No. 78
(Alexander Hamilton). “Although the purpose of a court of
equity was ‘to give relief in extraordinary cases, which are
exceptions to general rules,’ ‘the principles by which that
relief is governed are now reduced to a regular system.’”
Trump v. Hawaii, 138 S. Ct. 2392, 2426 (2018) (Thomas, J.,
concurring) (quoting The Federalist No. 83 (Alexander
Hamilton)).

43a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 44 of 66

44

SMITH V. DAVIS

After the ratification of the Constitution—with Article
III’s grant of jurisdiction over “all Cases, in Law and
Equity,” U.S. Const. Art. III, § 2—concerns remained that
judges would exercise their powers in equity to undermine
legislative and executive authority. Alarmed at (what he saw
as) a tendency to treat equity “as a source of nearly
unbounded judicial discretion,” Justice Joseph Story—
quoted by the majority several times, but without
acknowledgement of his disquiet about the exercise of
unbridled judicial power in the guise of equity
jurisprudence—devoted himself to developing equity
jurisprudence into a “science.” Gary L. McDowell, Equity
and the Constitution 74–76 (1982). Justice Story’s purpose
in doing so was to assure that the discretion equity confers
would be used “not to act arbitrarily, according to men’s
wills and private affections” but would rather “be governed
by the rules of law and equity, which are not to oppose, but
each in its turn to be subservient to the other.” J. Story, 1
Commentaries on Equity Jurisprudence § 13 (14th ed.
1918).
Attention to congressional intent proved critical to the
effort in this country to restrain the exercise of powers in
equity and thereby to guard against judicial usurpation of the
coordinate branches of government. So, although Article III
endows the judiciary with equity jurisdiction, American
courts have (until now) never viewed equitable relief as
purely a matter of judicial discretion, created anew for each
case and each circumstance. Rather, federal courts have
avoided the separation-of-powers problems that might
otherwise be posed by the broad and idiosyncratic powers
English courts of equity once wielded by recognizing that
legislatures understand that they act against the backdrop of
existing law, including equitable principles. Concomitantly,
judges exercising their equitable authority endeavor to

44a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 45 of 66

SMITH V. DAVIS

45

incorporate legislative enactments to the degree consistent
with equitable doctrines. Given that dual dynamic, whether
equitable relief is appropriate in a particular instance
necessarily incorporates considerations of legislative intent.
In the famous case of Riggs v. Palmer, for example, a
statute governing wills was interpreted to incorporate the
equitable doctrine of unclean hands on the ground that the
legislature intended for the doctrine to apply, because the
legislature could not have meant to allow murderers to
inherit the estates of those they murdered. 115 N.Y. 506,
510–12 (1889). Similarly, the Supreme Court has repeatedly
declared that whether to apply equitable tolling is
“fundamentally a question of statutory intent.” Lozano v.
Montoya Alvarez, 572 U.S. 1, 10 (2014). It was on this basis
that Holland held that Congress intended AEDPA’s statute
of limitations to be equitably tolled in appropriate
circumstances. 560 U.S. at 645–46; see also McQuiggin,
569 U.S. at 398 n.3; id. at 409–10 (Scalia, J., dissenting).
If a statute of limitations has been adopted, legislative
intent determines not only whether equitable tolling is
available, but also, if it is available, how it is to be applied.
Statutes of limitation reflect policy judgments as to the
length of time within which plaintiffs or petitioners should
reasonably be expected to file. To take one early English
example, a statute codified a common law limitations period
based on “a reasonable time” that it would take a party,
“wheresoever he dwelt in England,” to reach the court of
justice “wheresoever” it sat. Edward Coke, The Second Part
of the Institutes of the Laws of England 567 (1642).
Equity jurisprudence has long been sensitive to such
legislative determinations of the time it should take a
claimant to file. As early as 1767, English courts recognized:

45a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 46 of 66

46

SMITH V. DAVIS
Expedit reipublicae ut sin finis litum [it is in
the public interest that lawsuits come to an
end] is a maxim that has prevailed in this
court in all times without the help of an act of
Parliament. But as the court has no
legislative authority, it could not properly
define the time of bar by a positive rule to an
hour, a minute, or a year. It was governed by
circumstances. But as often as Parliament had
limited the time of actions or remedies to a
certain period of legal proceedings, the Court
of Chancery adopted that rule, and applied it
to similar cases in equity.

J. Story, 3 Commentaries on Equity Jurisprudence § 1972
n.2 (14th ed. 1918) (quoting Smith v. Clay, Ambl. R. 645
(1767)) (emphasis added). To put the same point another
way: In the absence of a statute of limitations, courts engage
in a free-wheeling, independent assessment of how much
time a claimant reasonably should take to pursue his claim,
and how much delay should bar relief. 6 But once the
legislature has made a policy determination as to the precise
amount of time a claimant reasonably should have to file
under ordinary circumstances, that policy determination sets
a baseline for equity’s operation. So, where a limitations
period has been fixed by statute, courts of equity have acted
“positively in obedience to such statute,” 2 J. Story,
6
“Equity, when there is no statute of limitations applicable to suits,
fashions its own time limitations through laches.” Int’l Tel. & Tel. Corp.,
518 F.2d at 926. But even in that circumstance, courts usually shy away
from making their own policy judgments as to the time it should take to
file: “Although analogous statutes do not necessarily control, equity will
look to the statute of limitations relating to actions at law of like character
and usually act or refuse to act in comity with such statutes.” Id. (citation
omitted).

46a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 47 of 66

SMITH V. DAVIS

47

Commentaries on Equity Jurisprudence § 705 (14th ed.
1918).
Against this long tradition of restraining equitable
discretion out of respect for the separation of powers, the
majority relies on “[t]he judicial Power” alone for the
proposition that its application of equitable principles need
not attend to congressional intent. Maj. Op. at 18 (citing U.S.
Const. Art. III, § 2). Once equitable tolling is invoked, the
majority insists, judges are free to determine for themselves,
in the name of equity, how long a filing should take to
prepare, entirely disregarding the period of time chosen by
Congress in the course of determining how long the
functional limitations period should be. Id.
The fundamental problem with the majority’s bald
invocation of “[t]he judicial Power” is that it proves the antifederalists’ original point. Maj. Op. at 18 (citing U.S. Const.
Art. III, § 2). Equitable tolling’s place in the American
system has been justified on the assumption that Congress
acts against a stable backdrop of equity jurisprudence and
common law. That assumption makes sense only if the
background doctrines Congress assumes to apply are
effectuated so that they coexist with rather than flaunt
legislative determinations. In the equitable tolling context,
that coexistence requires respect for the filing periods
Congress has deemed reasonable. By instead invoking the
judicial power as a source of raw authority to declare, on a
blank slate, how much time a “diligent” habeas petitioner
needs to file a federal habeas petition, the majority interprets
Article III to be the very judicial supremacy provision its
opponents feared.

47a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 48 of 66

48

SMITH V. DAVIS
II. AEDPA and Congressional Intent

Consistently with the applicable principles of equity,
Socop-Gonzalez invoked congressional intent as one of three
considerations counseling in favor of the “stop-clock” rule.
Pausing the limitations period, rather than replacing it with
one invented by judges, avoids the separation-of-powers
problem posed when a court “usurps congressional authority
. . . [by] rewrit[ing] the statute of limitations” and
“substituting its own subjective view of how much time a
plaintiff reasonably needed to file suit.” 272 F.3d at 1196.
By reversing that well-considered holding, the majority
institutes a new regime in this Circuit—a regime which
sanctions the very judicial usurpation of congressional
authority we warned against in Socop-Gonzalez.
Congress made a considered judgment in AEDPA that
365 days is the period of time a prisoner should have to
prepare and file a habeas petition. As Congress intended
AEDPA’s limitations period to be subject to equitable
tolling, Holland, 560 U.S. at 645, it necessarily set the length
of the limitations period with the understanding that, when
extraordinary circumstances arise, a longer period is
permitted for filing. How much longer? As we explained in
Socop-Gonzalez, under the stop-clock approach to equitable
tolling, when an extraordinary circumstance prevents a
claimant from timely filing, the claimant receives the full
time Congress determined he may take to file—365 days—
but not more. The statute of limitations resumes running for
any time remaining in it after the extraordinary circumstance
that precluded filing has ended. 7 At the same time, the
7

I note that the stop-clock rule provides the rationale absent from
the majority’s approach, see n.3, supra, for ending the limitations period
on a day certain even when there is equitable tolling. Here, the

48a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 49 of 66

SMITH V. DAVIS

49

diligence requirement ensures that the claimed extraordinary
circumstance actually denied the claimant the full time
Congress intended he have to file, such that equity offers
only relief, not a windfall. See Doe v. Busby, 661 F.3d, 1001,
1012–13 (9th Cir. 2011); Roy v. Lampert, 465 F.3d 964, 973
(9th Cir. 2006); Spitsyn v. Moore, 345 F.3d 796, 802 (9th
Cir. 2003); Valverde v. Stinson, 224 F.3d 129, 134 (9th Cir.
2000); Miles v. Prunty, 187 F.3d 1104, 1107 (9th Cir. 1999).
Under the majority’s approach, in contrast, the congressional
determination that 365 days is to be allowed is ignored, and
one judge—or three, or eleven—may decide for themselves
how much time a plaintiff or petitioner should have to put
together an initial pleading.
The majority avoids grappling with the focus on
congressional intent underlying Socop-Gonzalez in part by
insisting that statutes of limitation are generally seen as
protecting the rights of defendants, not plaintiffs. Maj. Op.
at 16–17. The congressional determination whether to
impose a statutory limitations period surely does turn largely
on the perceived strength of defendants’ interests in repose.
But the question of how long a statute of limitations should

extraordinary circumstance existed on the day the limitations period
began running, so Smith would have 365 days, not more, from the end
of the extraordinary circumstance within which to file. And if, for
example, Smith’s extraordinary circumstance—say, a debilitating
illness—had not arisen until midway through the limitations period, he
still would have had, under the stop-clock approach, the number of days
left in the limitations period after his recovery, not more, within which
to file his petition.

49a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 50 of 66

50

SMITH V. DAVIS

be necessarily includes the consideration of how much time
a plaintiff should have to file. 8
In sum, the majority follows Holland, as it must, as to
whether equitable tolling is available. But it does so
begrudgingly, resisting Holland’s recognition that equitable
tolling is available under AEDPA because it is fully
consistent with, not at odds with, congressional intent.
Instead of using the congressional determination of the
applicable limitations period—a total of 365 days—the
majority proclaims that once equitable tolling is invoked,
“[t]he judicial Power” takes over, empowering judges to
second-guess Congress’s judgment of the time claimants
should be given to file. Maj. Op. at 18 (citing U.S. Const.
Art. III, § 2). I would reinstate Socop-Gonzalez’s preference
for respecting rather than ignoring Congress’s determination
of the number of days available to prepare and file a lawsuit
by stopping the clock for the period of the extraordinary
circumstance.
III. Supreme Court Precedent
Aside from its expansive invocation of judicial power,
the majority’s argument for abandoning Socop-Gonzalez
rests on the assertion that the Supreme Court’s decisions in
8
The majority extensively quotes cases recognizing that the
legislative decision to impose a statute of limitations reflects a policy
judgment that defendants should be protected against claims of a certain
age. Maj. Op. at 16. That recognition is correct. But the majority does
not grapple with a basic point: if Congress were really exclusively
concerned with protecting defendants, every limitations period would be
extremely short. That is not the case. Congress determined, for example,
that habeas petitioners should have 365 days to prepare and file their
petitions, not ten or thirty or ninety or one hundred eighty days, all
periods that would be more defendant protective. That determination is
the legislative judgment that the majority refuses to respect.

50a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 51 of 66

SMITH V. DAVIS

51

Pace and Holland overturned (sub silentio) the Supreme
Court cases Socop-Gonzalez relied upon as a basis for
adopting the stop-clock rule for equitable tolling. The
majority does not explicitly say that these cases overrule
Socop-Gonzalez, only that they “undermine” its “continued
validity.” Maj. Op. at 31 n.8. And the majority is not clear as
to whether the rule it extracts from these cases controls only
in “future AEDPA equitable tolling decisions,” or whether it
sweeps more broadly. Maj. Op. at 21 (emphasis added).
Either way, Pace and Holland are perfectly compatible with
Socop-Gonzalez, and with a key Supreme Court case postdating Pace and Holland—Artis v. District of Columbia,
138 S. Ct. 594 (2018)—which the majority seeks to sweep
aside.
In establishing the stop-clock standard, Socop-Gonzalez
relied principally on Burnett v. New York Central Railroad
Company, 380 U.S. 424 (1965), and American Pipe &
Construction Company v. Utah, 414 U.S. 538 (1974). In
Burnett, the plaintiff timely filed a Federal Employers’
Liability Act claim in state court; the claim was dismissed
for improper venue. The plaintiff refiled in federal court
eight days later, but the three-year statute of limitations had
by then expired. 380 U.S. at 424–25. The Supreme Court
held that the limitations period “was tolled during the
pendency of the state action,” and that the plaintiff could
have taken the full time remaining under the tolled statute
when the state court dismissal became final—the limitations
period minus the time the state court suit was pending—to
refile. Id. at 434–35.
American Pipe rested on a similar understanding of
tolling. 414 U.S. at 541, 561. The Court there held that the
institution of a class action suspends the running of the
limitations period for individual class members’ claims until

51a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 52 of 66

52

SMITH V. DAVIS

the suit is stripped of its class-action character. Id. at 561.
Subtracting the tolled period from the time since the original
statute of limitations had been running, the Court concluded
that individual class members had eleven days remaining
within which to file at the time that the tolled period ended:
“The class suit brought by Utah was filed with 11 days yet
to run in the [limitations] period . . . , and the intervenors
thus had 11 days after the entry of the order denying them
participation in the suit as class members in which to move
for permission to intervene.” Id. Because the plaintiffs filed
within eight days of the class action order, their individual
claims were not time-barred—that is, they could have taken
the full eleven days they had to file, regardless of any judge’s
subjective views as to whether they really needed all eleven
days. See id.
The majority recognizes that Burnett “would seem to
direct [the] stop-clock approach” of Socop-Gonzalez. Maj.
Op. at 25–26. (American Pipe is barely discussed. Maj. Op.
at 26.) But, the majority asserts, “subsequent
developments”—namely, Pace and Holland—have silently
abrogated Burnett. Id.
Equitable tolling’s diligence requirement was not
elaborated upon in the Court’s opinion in Burnett; given the
speed with which the plaintiff refiled, diligence was not a
live issue. The fact that diligence was not at issue in Burnett
is no reason to assume that the diligence requirement is in
any tension with the stop-clock principle. In fact, SocopGonzalez recognized and applied the Ninth Circuit’s
longstanding diligence requirement. “The question is
whether, despite due diligence, Socop was prevented during
this period [the period for which equitable tolling is sought]
by circumstances beyond his control and going beyond
‘excusable neglect,’ from discovering that his order of

52a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 53 of 66

SMITH V. DAVIS

53

deportation had become effective—the vital information he
needed in order to determine that a motion to reopen was
required in order to preserve his status.” 272 F.3d at 1194;
see also id. at 1185 (“[a]ll one need show is that by the
exercise of reasonable diligence the proponent of tolling
could not have discovered essential information bearing on
the claim” (quoting In re Gardenshire, 220 B.R. 376, 382
(B.A.P. 9th Cir. 1998))); Miles, 187 F.3d at 1107; Valverde,
224 F.3d at 134. The question, then, is whether and how
Pace and Holland disturbed this settled understanding of the
dual roles of diligence and the stop-clock calculation—
especially when, as I shall show, a recent Supreme Court
case reiterated the stop-clock understanding of equitable
tolling.
Pace arose in a distinctive context. Pace’s state
conviction became final four years before AEDPA’s oneyear statute of limitations was enacted, at a time when courts
applied a laches analysis to the timeliness of federal habeas
petitions because there was no limitations statute. 544 U.S.
at 410–11; see also Gratzer v. Mahoney, 397 F.3d 686, 690
(9th Cir. 2005) (“In pre-AEDPA practice, the equitable
doctrine of laches as applicable to habeas petitions was
codified in Rule 9(a) of the Rules Governing Section 2254
Cases.”). Indeed, before AEDPA, some states had no, or had
only recently passed, deadlines for filing state postconviction petitions. Grant v. Swarthout, 862 F.3d 914, 922
(9th Cir. 2017). Thus, petitioners sometimes waited years
before filing state post-conviction petitions, leaving federal
habeas courts to determine “whether petitioners had sat on
their claims for years before seeking relief and then asserted
that they were further entitled to equitable tolling.” Id. With
AEDPA’s passage, all prisoners to whom AEDPA applied
and who had not yet filed petitions were given 365 days
within which to file one. Pace missed that deadline and

53a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 54 of 66

54

SMITH V. DAVIS

sought statutory and, as a backup, equitable tolling. 544 U.S.
at 410, 417–18.
The Court rejected Pace’s principal, statutory tolling
argument. Id. at 417. In a brief discussion denying equitable
tolling, the Court stressed that Pace “waited years, without
any valid justification” to file his petition in Pennsylvania.
Id. at 419 (emphasis added). Had he “advanced his claims
within a reasonable time of their availability,” the Court
stated, Pace would not have “fac[ed] any time problem, state
or federal.” Id. It also noted (but seemingly placed no weight
upon) the fact that, after the rejection of his state court
petition became final, Pace waited five more months to file
in federal court. Id. The Court gave no indication that, if Pace
had filed five months earlier, it would have been any more
inclined to grant equitable relief, given the years-long prior
delay. Indeed, the passage of AEDPA gifted Pace a year he
would not otherwise have had within which to file.
Essentially, the Court held that laches already barred Pace’s
claim when AEDPA was enacted, so he was entitled to no
additional consideration after he was accorded an additional
year. Id. at 419 (citing McQuiddy v. Ware, 20 Wall. 14, 19
(1874) (“Equity always refuses to interfere where there has
been gross laches in the prosecution of rights) (emphasis
added)). In light of the transition worked by AEDPA—from
a regime in which courts assessed filing delays in the
absence of any statute of limitations to one in which they
defer to a congressional determination of the time it should
take to file—Pace’s distinct factual context is unlikely to
recur. See Grant, 862 F.3d at 922 (“Pace was a case in which
the Court denied equitable tolling based on the petitioner’s
failure to pursue state postcollateral relief for four years after
his direct appeal was concluded. . . . Pace was the product of
a problem common before the passage of AEDPA.”)

54a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 55 of 66

SMITH V. DAVIS

55

The Court also emphasized that Pace’s pre-AEDPA
multiple-year delay lacked “any valid justification,” because
the facts underlying the claims in his habeas petition were
available by 1991, long before his eventual filing. Id. at 418–
19. Pace was not denied equitable tolling on the basis of his
delay alone; it was the availability, even before the
limitations period began, of the facts he needed to file,
together with the five years that lapsed before AEDPA’s
passage, that precluded a finding that the asserted
extraordinary circumstance during the additional year the
new limitations period provided actually prevented timely
filing. Id.
Given this history, Pace is best understood as an
application of pre-AEDPA principles in the context of a
prisoner whose conviction became final well before
AEDPA. Otherwise, Pace’s lack of diligence before
AEDPA’s statute of limitations began to run would have had
no bearing on whether he was entitled to equitable tolling
under the statute thereafter. Pace thus offers no support for
the rule that the majority ultimately endorses: that a postextraordinary-circumstance delay alone can be seized upon
to deny relief for an otherwise diligent petitioner. Although
Pace reaffirmed that equitable tolling requires diligence, it
does not suggest that the diligence requirement displaces,
rather than operates in conjunction with, the stop-clock
approach to determining the amount of time available to the
plaintiff or petitioner. 9

9
The majority asserts that if the stop-clock approach had been
applied to the facts of Pace, the outcome would have been different. Maj.
Op. at 21 n.4. Not so. Again, under the stop-clock approach, diligence is
a separate inquiry and can independently bar the application of equitable
tolling, obviating the need to apply the stop-clock calculation—which is

55a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 56 of 66

56

SMITH V. DAVIS

The majority next relies on Holland, which it asserts
“took an additional step that weighs against” retaining
Socop-Gonzalez by adding “an explicit causation
requirement to the rule for equitable tolling.” Maj. Op. at 23.
But this Court had already recognized a causation
requirement for equitable tolling before Socop-Gonzalez,
and it has focused its diligence analysis on precisely that
requirement. See Miles, 187 F.3d at 1107; Valverde,
224 F.3d at 134. Moreover, to the extent the Holland Court
modified Pace at all, it modified only the extraordinarycircumstance element of equitable tolling—not the diligence
element—by adding four words (“and prevented timely
filing”) to the requirement that “some extraordinary
circumstance stood in [the petitioner’s] way.” 560 U.S.
at 649 (“[A] ‘petitioner’ is ‘entitled to equitable tolling’ only
if he shows ‘(1) that he has been pursuing his rights
diligently, and (2) that some extraordinary circumstance
stood in his way’ and prevented timely filing.”) (quoting
Pace, 544 U.S. at 418). 10 The case does nothing to heighten
the diligence requirement, nor does it invite judicial secondguessing of congressional determinations of the time
ordinarily needed to file.

what happened in Pace. See pp. 52–53 (discussing the diligence prong
as applied in Socop-Gonzalez).
10

The majority makes much of the Pace and Holland Courts’
phrasing of the diligence requirement as requiring that the petitioner
demonstrate “that he ‘has been pursuing his rights diligently’—not that
he ‘pursued,’ ‘had pursued,’ or ‘has pursued’ his rights diligently.” Maj.
Op. at 20 n.3. But as the majority itself recognizes in a separate footnote,
the Supreme Court elsewhere has more recently phrased the diligence
requirement to require only that the petitioner “has pursued his rights
diligently.” Maj. Op. at 29 n.7 (quoting CTS Corp. v. Waldburger,
573 U.S. 1, 9 (2014)).

56a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 57 of 66

SMITH V. DAVIS

57

The majority also suggests that Holland further
undermined Socop-Gonzalez by remarking on a petitioner’s
diligence after the extraordinary circumstance had
dissipated. But as the majority acknowledges, this remark
had no effect on the outcome of the case. Maj. Op. at 24 n.5.
So, like Pace, Holland does not stand for the proposition that
a delay in filing after an extraordinary circumstance has
abated, standing alone, can justify denying a petitioner
equitable relief. Rather, Pace and Holland made explicit
what the Ninth Circuit had already recognized about
equitable tolling’s diligence requirement, see Miles,
187 F.3d at 1107; Valverde, 224 F.3d at 134; Spitsyn,
345 F.3d at 802; Roy, 465 F.3d at 973; Doe, 661 F.3d
at 1012–13, and did not discuss—much less disapprove—
the well-established stop-clock principle. Much more would
be needed to conclude—as does the majority—that Pace and
Holland silently abrogated Burnett and American Pipe.
Were there any doubt that the stop-clock approach to
equitable tolling survived Pace and Holland, the Supreme
Court eliminated it in Artis v. District of Columbia, 138 S.
Ct. 594 (2018). Artis discussed at length the meaning of
“tolling” in the limitations period context generally and in
the equitable tolling context in particular, explaining that the
stop-clock approach applies in both contexts. Id. at 601–02.
The equitable tolling discussion in Artis was an integral
part of a larger discussion of the legal meaning of “tolling”
in the context of statutory time prescriptions generally. The
Court in Artis adopted a stop-clock interpretation of the word
“tolled” within the meaning of 28 U.S.C. § 1367(d) on the
understanding that “‘tolled’ in the context of a time
prescription . . . means that the limitations is suspended
(stops running) . . . then starts running again when the tolling
period ends, picking up where it left off.” Id. at 601. Artis

57a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 58 of 66

58

SMITH V. DAVIS

confirmed that understanding by quoting Black’s Law
Dictionary 1488 (6th ed. 1990) for the proposition that
“‘toll,’ when paired with the grammatical object ‘statute of
limitations,’ means “to suspend or stop temporarily,” 138 S.
Ct. at 601, and also by quoting American Pipe for the
proposition that “a ‘tolling’ prescription . . . ‘suspend[s] the
applicable statute of limitations,” id. at 602 (quoting
414 U.S. at 554). The Court then turned to its understanding
of equitable tolling as further indication of the stop clock
meaning of “tolling”:
We have similarly comprehended what
tolling means in decisions on equitable
tolling. See, e.g., CTS Corp. v. Waldburger,
573 U.S. —, —, 134 S.Ct. 2175, 2183, 189
L.Ed.2d 62 (2014) (describing equitable
tolling as “a doctrine that pauses the running
of, or ‘tolls’ a statute of limitations” (some
internal quotation marks omitted)); United
States v. Ibarra, 502 U.S. 1, 4, n. 2, 112 S.Ct.
4, 116 L.Ed.2d 1 (1991) (per curiam)
(“Principles of equitable tolling usually
dictate that when a time bar has been
suspended and then begins to run again upon
a later event, the time remaining on the clock
is calculated by subtracting from the full
limitations period whatever time ran before
the clock was stopped.”).
Id. at 602.
The majority emphasizes that Artis and some of the cases
upon which it relied did not directly involve equitable
tolling; instead, the issue in Artis was what a statute meant
by “toll.” Maj. Op. at 27–29. But it would have been

58a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 59 of 66

SMITH V. DAVIS

59

puzzling for the Court to describe the stop-clock rule of
equitable tolling exactly as it was framed in Socop-Gonzalez
if Pace and Holland had genuinely wrought the revolution
in the jurisprudence of equitable tolling imagined by the
majority.
Moreover, where a precedent “confronts an issue
germane to the eventual resolution of the case, and resolves
it after reasoned consideration in a published opinion, that
ruling becomes the law of the circuit, regardless of whether
doing so is necessary in some strict logical sense.” Miranda
B. v. Kitzhaber, 328 F.3d 1181, 1186 (9th Cir. 2003)
(quoting United States v. Johnson, 256 F.3d 895, 914 (9th
Cir. 2001)). And, in any event, “[w]e do not treat considered
dicta from the Supreme Court lightly.” McCalla v.
MacCabees Life Ins. Co., 369 F.3d 1128, 1132 (9th Cir.
2004) (quoting United States v. Montero-Camargo, 208 F.3d
1122, 1132 n.17 (9th Cir. 2000) (en banc)). Here, the
Supreme Court invoked its stop-clock understanding of
equitable tolling as an integral part of its reasoning for
adopting its stop-clock interpretation of the statute at issue.
Artis thus made clear that Pace and Holland did not silently
overrule Burnett and American Pipe and thereby undermine
Socop-Gonzalez.
IV. Administrability and Uniformity
The majority does not engage at all with the third
consideration underlying Socop-Gonzalez: that the approach
the majority today adopts is “needlessly difficult to
administer,”
and
promotes
“inconsistency”
and
“uncertainty.” 272 F.3d at 1195; see also Maj. Op. at 31 n.8.
But, if more were needed, that consideration remains a
powerful reason to retain Socop-Gonzalez’s stop-clock
approach to equitable tolling.

59a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 60 of 66

60

SMITH V. DAVIS

Given its “chancellor’s foot” approach to deciding the
total filing period available to a petitioner when the other
equitable tolling requisites are met, the Court’s opinion
today provides no guidance to district courts or three-judge
panels for determining, retrospectively, the filing period
required in the various circumstances in which equitable
tolling can be invoked. This case is one in which the
extraordinary circumstance impeded filing during the first
part of the statutory limitations period. But that is not always
the case. Extraordinary circumstances are often
extraordinary precisely because they arise at an unexpected
time and involve widely varying circumstances. By
committing this Circuit to the business of deciding how long
one should take to prepare and file a federal claim, the
majority requires judges to decide whether claimants should
receive more, less, or the same amount of time to file
depending on what the extraordinary circumstance is and
whether it arises sooner or later during the running of the
limitations period.
To illustrate: Suppose that a six-month coma befalls one
petitioner exactly at the moment that an applicable one-year
limitations period would ordinarily begin to run. And
suppose that a second petitioner succumbs to an
indistinguishable six-month coma with exactly six months
remaining on the applicable limitations clock. Both
petitioners file exactly 366 days after the applicable
limitations period would ordinarily have begun—that is,
both petitioners took six conscious months plus an additional
conscious day to prepare their respective filings. Must the
second petitioner exhibit more, less, or the same level
diligence as the first to prove worthy of equitable tolling?
Under the stop-clock rule, of course, equitable tolling
would provide the full period Congress determined should

60a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 61 of 66

SMITH V. DAVIS

61

be available, 365 days, so each petitioner would receive six
months of tolling and both filings would be timely. But
without such a rule, courts are left free to decide, on a casespecific basis, whether six months and a day was too long a
period within which to file for the first petitioner but not the
second (perhaps on the ground that, once the first petitioner
awoke, he had an uninterrupted preparation period, while the
second petitioner could not have foreseen the barrier to
filing), or vice versa (perhaps because the second petitioner
could have been working diligently all along and, if she did,
could have finished before disaster struck). Suppose, further,
that a third unfortunate petitioner survives a 365-day coma
which began on the day that his limitations period started.
Could six conscious months (plus a day) be deemed too long
a period within which to prepare and file a claim in his case,
even though Congress provided a 365-day limitations
period?
Consider, too, the dilemmas the majority’s approach
creates for petitioners. The majority effectively requires
petitioners to be prepared, in advance of filing, to
demonstrate precisely how they used their time, even if they
do not yet know that an extraordinary circumstance that gets
in their way may arise. This new requirement is particularly
troubling given the majority’s assertion—unnecessary to
decide this case—that diligence before the extraordinary
circumstance arises must also be demonstrated. See, e.g.,
Maj. Op. at 30. Under the majority’s approach, a petitioner
who fears that an extraordinary circumstance might arise
would be well-advised to prepare a journal, demonstrating
just how diligently they have used each month, day, or hour
available, to prevent a judge from seizing upon delay that
seems to her excessive as an excuse to deny relief.

61a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 62 of 66

62

SMITH V. DAVIS

Then there is the problem of what the journal must show
to reflect diligence: If the petitioner attends classes provided
by the prison for three hours when he could be working on
his petition, is he insufficiently diligent? If a non-prisoner
plaintiff takes a week-long vacation with his family when he
could be working on his complaint, is he insufficiently
diligent? Should the petitioner’s reading level or minor
illnesses affect the determination of how long he should have
taken to file once the extraordinary circumstance abated?
Any answers to these questions will be unpredictable and
come after the fact. As a result, a petitioner will have the
incentive “to rush to court without fully considering his or
her claim—a policy that serves none of the parties involved.”
Socop-Gonzalez, 272 F.3d at 1196. Socop-Gonzalez was
correct to regard the ease of administration of the stop-clock
rule as an additional reason for affirming it. I would do so
again today.
V. Equitable Tolling as Applied
The strength of Socop-Gonzalez’s administrability
consideration is well demonstrated by the majority’s
application of its approach to the facts of this case.
It is undisputed that Smith’s lawyer wrongfully withheld
Smith’s appellate record, despite Smith’s diligent efforts in
seeking it, for 66 days. Smith filed his federal habeas petition
65 days after the statute of limitations would ordinarily have
expired. He requests equitable tolling for the 66 days for
which his record was wrongfully withheld. Applying the
stop-cock rule (and assuming, again, that the withholding of
the record was an extraordinary circumstance), Smith filed
his petition with a day to spare.

62a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 63 of 66

SMITH V. DAVIS

63

It is unclear on the present record how Smith used the
364 days it took him to prepare and file his petition.
Although his legal arguments on federal habeas are largely
the same as those asserted in his state court appellate briefs,
he deleted one claim. Why, and whether his decision to do
so depended on his review of the case files, the record does
not disclose. Also, Smith’s federal habeas petition contained
20 pages of factual background copied, with a number of
alterations, from a brief he submitted on direct appeal. The
record does not tell us whether the fact section he revised
was included in the records he received.
This factual ambiguity illustrates why this Court has long
tethered equitable tolling’s diligence inquiry to its causation
requirement. Suppose, for example, that, after receiving the
records wrongfully withheld, Smith never opened the box
containing them. If that were so, it could not be said that the
66-day delay in receiving those records prevented his timely
filing, as he evidently did not need those records to prepare
his petition. To put it another way: for a petitioner who
would make no use of his record, the unavailability of that
record is not an extraordinary circumstance that prevents
timely filing.
But suppose, instead, that Smith did review the
wrongfully withheld records to determine whether his
petition might be strengthened by them. That effort could
take considerable time. As the Seventh Circuit has
recognized in a similar context,
[S]ometimes it takes a longer time to review
the possibilities, discard the least promising,
and write a concise pleading than it would to
write a kitchen-sink petition. Perhaps a
review of his entire record indicated to
[petitioner] that he was best served by

63a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 64 of 66

64

SMITH V. DAVIS
repeating claims made by a member of the
bar, instead of trying to craft legal arguments
from scratch. He could not have known until
he had the chance to review his file.

Socha v. Boughton, 763 F.3d 674, 688 (7th Cir. 2014).
Exactly how much time should be allowed for that reviewing
process and for the preparation of a habeas petition based on
it? Congress has been clear: a petitioner is permitted to take
up to 365 days to prepare and file a federal habeas petition.
Again, “[a] year is a year is a year.” Lott, 304 F.3d at 927
(McKeown, J., concurring).
The difference between these two scenarios explains
why, even if Smith’s federal habeas petition had been a
verbatim copy of what he submitted for state habeas review,
the 364-day delay between his receipt of the records and his
filing, standing alone, cannot support the denial of relief. In
the first scenario, Smith’s lack of diligence once he received
his record would have illustrated that the absence of his
records did not affect his ability to meet the statutory
deadline, so his lack of diligence would preclude equitable
tolling. But in the second scenario, in which Smith did need
and use his case files, his overall diligence should be
measured against the 365-day period provided by Congress.
Under these circumstances, the causal link would be
unbroken: had Smith’s attorney not prevented him from
beginning his reviewing process sooner, he would have had
the full statutory period in which to prepare a timely filing.
The majority does not and cannot say which of these two
scenarios more accurately reflects Smith’s drafting process.
Previously, when we have been unsure about the relationship
between the asserted extraordinary circumstance and the
impact of the plaintiff’s diligence, or lack thereof, on his

64a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 65 of 66

SMITH V. DAVIS

65

ability to use the time ordinarily available under the
limitations deadline, we have remanded for the fact-finding
necessary to resolve that uncertainty. Spitsyn, 345 F.3d at
802. This the majority refuses to do. On the one hand, the
majority instructs courts to be “fact-specific”; on the other,
the majority’s reasoning provides no guidance as to which
sorts of facts—say, variations in petitioners’ reading levels,
in the scheduling demands of their wardens, or in the quality
of their prison libraries—might have made a difference for
Smith. Compare Maj. Op. at 11–15 with Maj. Op. at 33–36.
So, the majority’s ruling is really that 364 days is always too
long a period within which to prepare a federal habeas
petition, whatever the petitioner was doing for those days—
even though Congress provided a 365-day limitations
period. From whence that judicially decreed benchmark
came we are not told. 11
The majority rejects this characterization of its holding,
insisting that it has “no trouble imagining” cases in which
taking 364 days to prepare and file a habeas petition after an
extraordinary circumstance abates does not disqualify a
petitioner from receiving equitable tolling. Maj. Op. 35. But
it makes no effort to distinguish its imaginings from the case
at hand, saying only that petitioners must work on their
petitions “with some regularity.” Maj. Op. at 35. We are left
to wonder what sort of regularity must be demonstrated—

11

This indifference to the factual record—or in this case, to the
silence of the record as to the pertinent considerations—creates, I note,
a split with the Sixth and Seventh Circuits, which have both recognized
that “the mere passage of time—even a lot of time—. . . does not
necessarily mean [a claimant] was not diligent.” Gordillo v. Holder,
640 F.3d 700, 705 (6th Cir. 2011); see also Pervaiz v. Gonzalez, 405
F.3d 488, 490 (7th Cir. 2005) (“[T]he test for equitable tolling . . . is not
the length of the delay.”).

65a

Case: 17-15874, 03/20/2020, ID: 11636039, DktEntry: 58-1, Page 66 of 66

66

SMITH V. DAVIS

that is, what the journal Smith is retroactively expected to
have prepared must show. See p.62, supra.
Conclusion
Under the new regime, plaintiffs and petitioners who file
their habeas petitions free from any extraordinary
impediments will enjoy the full 365 days that Congress
provided within which to complete and file their initial
pleadings. But if an extraordinary circumstance—say, grave
illness, see, e.g., Arbas v. Nicholson, 403 F.3d 1379, 1381
(Fed. Cir. 2005), serious attorney misconduct, Holland,
560 U.S. at 652, or misinformation from a court or
government office, Socop-Gonzalez, 272 F.3d at 1184–85—
precludes a potential litigant from drafting or filing his
lawsuit during part or all of the limitation period, the ground
shifts. Now, the litigant has only the number of days for
drafting and filing deemed adequate after the fact by the
judge or judges who happen to be assigned to his case. We
decided otherwise in Socop-Gonzalez, and Artis reaffirmed
the stop-clock approach to equitable tolling there adopted.
Neither the majority’s extravagant view of judicial
discretion in equity nor its misreading of Supreme Court
precedent can justify abandoning that approach.
I therefore respectfully dissent. I would remand for the
district court to apply the correct, stop-clock standard, after
deciding (rather than assuming, as both the majority and I
have done) whether Smith did in fact face an extraordinary
circumstance and met the diligence standard as it relates to
that circumstance.

66a

Case: 17-15874, 10/17/2018, ID: 11049917, DktEntry: 36-1, Page 1 of 3

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

OCT 17 2018
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

ANTHONY BERNARD SMITH, Jr.,

No.

Petitioner-Appellant,

17-15874

D.C. No. 2:15-cv-01785-JAM-AC

v.
MEMORANDUM*
RON DAVIS,
Respondent-Appellee.

Appeal from the United States District Court
for the Eastern District of California
John A. Mendez, District Judge, Presiding
Argued and Submitted October 9, 2018
San Francisco, California
Before: D.W. NELSON, W. FLETCHER, and BYBEE, Circuit Judges.
Anthony Smith appeals the district court’s order dismissing his petition for writ
of habeas corpus. We have jurisdiction under 28 U.S.C. §§ 1291, 2253. We review
the district court’s order de novo. Spitsyn v. Moore, 345 F.3d 796, 799 (9th Cir.
2003). We affirm.
*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
67a

Case: 17-15874, 10/17/2018, ID: 11049917, DktEntry: 36-1, Page 2 of 3

Smith filed his habeas petition on August 14, 2015, approximately twelve
months after he received his appellate record from his attorney and fourteen months
after his state conviction became final. The magistrate judge issued findings and a
recommendation that Smith’s petition be dismissed. The district court dismissed
Smith’s petition as untimely.
Smith argues that he was entitled to equitable tolling for the two months during
which his appellate attorney improperly retained his records. A habeas petitioner
seeking equitable tolling must show “‘(1) that he has been pursuing his rights
diligently, and (2) that some extraordinary circumstance stood in his way’ and
prevented timely filing.” Holland v. Florida, 560 U.S. 631, 649 (2010) (quoting Pace
v. DiGuglielmo, 544 U.S. 408, 418 (2005)). “Courts may . . . consider a petitioner’s
diligence, after an extraordinary circumstance has been lifted, as one factor in a
broader diligence assessment” to “ensure that the extraordinary circumstance faced
by petitioners . . . cause[d] [] the tardiness of their federal habeas petitions.” Gibbs
v. Legrand, 767 F.3d 879, 892 (9th Cir. 2014) (citations and quotations omitted). We
are willing to assume that the failure of Smith’s counsel to provide his records was an
extraordinary circumstance. But when Smith received his records, he had ten months
left in which to file his federal petition. Smith did not explain why the two-month
deprivation of his records caused his untimely filing. A review of his petition reveals
2
68a

Case: 17-15874, 10/17/2018, ID: 11049917, DktEntry: 36-1, Page 3 of 3

that it is essentially a verbatim copy of his previous state filings. Under these
circumstances, the district court was correct to conclude that Smith had not established
(1) that the deprivation of his appellate record caused his untimely filing or (2) that
he diligently used the ten months of the limitations period that remained after
receiving his records.
AFFIRMED.

3
69a

Case 2:15-cv-01785-JAM-AC Document 25 Filed 10/27/16 Page 1 of 2

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

ANTHONY SMITH,

12
13
14

No. 2:15-cv-1785 JAM AC P

Petitioner,
v.

ORDER

RON DAVIS,

15

Respondent.

16
17

Petitioner, a state prisoner proceeding pro se and in forma pauperis, has filed an

18

application for a writ of habeas corpus pursuant to 28 U.S.C. § 2254. The matter was referred to

19

a United States Magistrate Judge pursuant to 28 U.S.C. § 636(b)(1)(B) and Local Rule 302.

20

On September 8, 2016, the magistrate judge filed findings and recommendations herein

21

which were served on all parties and which contained notice to all parties that any objections to

22

the findings and recommendations were to be filed within fourteen days. ECF No. 24. Neither

23

party has filed objections to the findings and recommendations.

24

The court has reviewed the file and finds the findings and recommendations to be

25

supported by the record and by the magistrate judge’s analysis. Accordingly, IT IS HEREBY

26

ORDERED that:

27

1. The findings and recommendations filed September 8, 2016, are adopted in full;

28

2. Respondent’s motion to dismiss (ECF No. 14) is granted and petitioner’s application
1

70a

Case 2:15-cv-01785-JAM-AC Document 25 Filed 10/27/16 Page 2 of 2

1

for writ of habeas corpus is denied as untimely.

2

3. The court declines to issue the certificate of appealability referenced in 28 U.S.C. §

3

2253.

4

DATED: October 27, 2016

5

/s/ John A. Mendez_________________________

6

UNITED STATES DISTRICT COURT JUDGE

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
2

71a

Case 2:15-cv-01785-JAM-AC Document 26 Filed 10/27/16 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

JUDGMENT IN A CIVIL CASE
ANTHONY SMITH,
CASE NO: 2:15−CV−01785−JAM−AC

v.
RON DAVIS,

XX −− Decision by the Court. This action came to trial or hearing before the Court. The issues
have been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED IN ACCORDANCE WITH THE
COURT'S ORDER FILED ON 10/27/16

Marianne Matherly
Clerk of Court

ENTERED: October 27, 2016

by: /s/ H. Kaminski
Deputy Clerk

72a

Case: 17-15874, 07/15/2019, ID: 11363026, DktEntry: 46, Page 1 of 2

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JUL 15 2019
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
ANTHONY BERNARD SMITH, Jr.,

No.

Petitioner-Appellant,

U.S. COURT OF APPEALS

17-15874

D.C. No.
2:15-cv-01785-JAM-AC
Eastern District of California,
Sacramento

v.
RON DAVIS,

ORDER
Respondent-Appellee.
THOMAS, Chief Judge:
En banc oral argument will take place during the week of September 23,
2019, in San Francisco, California. The date and time will be determined by
separate order. For further information or special requests regarding scheduling,
please contact Deputy Clerk Paul Keller at paul_keller@ca9.uscourts.gov or
(206) 224-2236.
Within seven days from the date of this order, the parties shall forward to the
Clerk of Court eighteen additional paper copies of the original briefs and ten
additional paper copies of the excerpts of record. The paper copies must be
accompanied by certification (attached to the end of each copy of the brief) that the
brief is identical to the version submitted electronically. A sample certificate is
available at

73a

Case: 17-15874, 07/15/2019, ID: 11363026, DktEntry: 46, Page 2 of 2

http://www.ca9.uscourts.gov/datastore/uploads/cmecf/Certificate-for-Brief-inPaper-Format.pdf. The paper copies shall be printed from the PDF version of the
brief created from the word processing application, not from PACER or Appellate
ECF.

2
74a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 1 of 24

No. 17-15874
Before the Honorable Dorothy W. Nelson, William A. Fletcher, and
Jay S. Bybee, CJJ; Memorandum Disposition filed October 17, 2018
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ANTHONY SMITH,
v.

Petitioner-Appellant,

RON DAVIS, Warden
Respondent-Appellee.
On Appeal from a Judgment of the
United States District Court for the Eastern District of California
District Court No. 2:15-cv-01785 JAM AC

PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
Heather E. Williams
Federal Defender
David M. Porter
Assistant Federal Defender
801 "I" Street, 3rd Floor
Sacramento, California 95814
Telephone: (916) 498-5700
Attorneys for Petitioner-Appellant
ANTHONY SMITH
75a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 2 of 24

TABLE OF CONTENTS
Table of Authorities .................................................................................................. ii
I.

INTRODUCTION .......................................................................................... 1

II.

ARGUMENT .................................................................................................. 5

III.

A.

The stop-clock rule promotes statute of limitation purposes, respects
Congressional authority, and encourages the exhaustion of state
remedies without eliminating federal habeas relief.............................. 5

B.

The "irreconcilable" approaches have caused widespread confusion
that can be resolved only by addressing the issue en banc ................. 11

C.

This case is the perfect vehicle for addressing the recognized and
widespread confusion created by the divergent tests .......................... 14

CONCLUSION.............................................................................................. 15

Brief Format Certification Pursuant to Circuit Rule 32-1 ....................................... 16
Certificate of Service................................................................................................ 17

i
76a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 3 of 24

TABLE OF AUTHORITIES
Page(s)
Federal Cases
Artis v. District of Columbia,
138 S. Ct. 594 (2018) .......................................................................................... 10
Bobadilla v. Gipson,
679 Fed. Appx. 600, 2017 U.S. App. LEXIS 4102 (9th Cir. Mar. 8, 2017) ...... 13
Cada v. Baxter Healthcare Corp.,
920 F.2d 446 (7th Cir.1990).................................................................................. 6
Espinosa-Matthews v. California,
432 F.3d 1021 (9th Cir. 2015).............................................................................. 14
Gibbs v. LeGrand,
767 F.3d 879 (9th Cir. 2014).................................................................................. 8
Grant v. Swarthout,
862 F.3d 914 (9th Cir. 2017)................................................................................. 12
Irwin v. Dep’t of Veterans Affairs,
498 U.S. 89 (1990) ................................................................................................. 5
Lott v. Mueller,
304 F.3d 918 (9th Cir. 2002)................................................................................... 8
Luna v. Kernan,
784 F.3d 640 (9th Cir. 2015) ....................................................................................... 11
Mangum v. Action Collection Serv., Inc.,
575 F.3d 935 (9th Cir. 2009)................................................................................... 8
Milby v. Templeton,
875 F.3d 1229 (9th Cir. 2017)................................................................................ 14

ii
77a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 4 of 24

Santa Maria v. Pac. Bell,
202 F.3d 1170 (9th Cir. 2000) ................................................................................ 6
Socop-Gonzalez v. INS,
272 F.3d 1176 (9th Cir. 2001) (en banc) ....................................................... 1, 5, 6
Spitsyn v. Moore,
345 F.3d 796 (9th Cir. 2003)................................................................................. 11
Federal Statutes
28 United States Code Section 2244(d)(2) ................................................................ 11
Federal Rules
Federal Rule of Appellate Procedure 35(a) ................................................................ 3
State Rules
California Rule of Professional Conduct 3-500) ....................................................... 14
California Rule of Professional Conduct 3-700(D) ................................................... 14
Other Authorities
Statistical Tables for the Federal Judiciary, Table B-7, available at:
http://www.uscourts.gov/report-names/statistical-tables-federal-judiciary (last
visited Dec. 19, 2018) ............................................................................................. 3

iii
78a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 5 of 24

No. 17-15874
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

ANTHONY SMITH,

D.C. No. 2:15-cv-01785 JAM AC

Petitioner-Appellant,

Eastern District of California,
Sacramento

v.
Petition for Panel Rehearing and
Rehearing En Banc

RON DAVIS, Warden,
Respondent-Appellee.

I.

INTRODUCTION
This case squarely presents an issue that has bedeviled this Court, and the

district courts of this circuit, for almost two decades. Courts have taken two very
different approaches in determining whether a statute of limitations is equitably
tolled. Some courts follow the "stop-clock" rule, where the statute of limitations
clock stops running when extraordinary circumstances stand in the way of a
litigant's timely filing, but the clock resumes running once the extraordinary
circumstances are overcome or resolved. Under this rule, a litigant needs to show
diligence only during the period she seeks to have tolled; there is no need to show
diligence after the extraordinary circumstances have ended. In 2001, this Court
sitting en banc adopted this bright line rule in Socop-Gonzalez v. INS, 272 F.3d
1
79a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 6 of 24

1176. Some panels, however, have followed a diligence-through-filing approach,
which, as the name implies, requires a litigant to show diligence through the time of
filing, even after the extraordinary circumstances have ended. Some panels have
claimed courts are obligated to apply both tests.
Courts applying the stop-clock rule have explained in detail the benefits of
the rule: it better serves the statute of limitation policies of certainty and
uniformity; it respects congressional authority because it does not permit judges to
substitute their subjective views of how much time a plaintiff reasonably needs to
file suit; it encourages the exhaustion of state remedies without eliminating federal
habeas relief; and, the contrary approach is needlessly difficult to administer and
has been explicitly rejected by the Supreme Court.
No such explication is found in the cases applying the diligence-throughfiling approach, and plainly, the two tests are at odds, as this Court has repeatedly
recognized. As discussed more fully below, one court observed that "our circuit
may need to decide whether it makes sense to follow the stop-clock approach and
at the same time impose a diligence-through-filing requirement," and another
panel, after an extensive discussion of the divergent tests, left the specific question
"for another day," but noted it was inclined to follow the stop-clock rule. One
judge put it forthrightly and, we believe, correctly in stating, "the two lines of cases
are irreconcilable."
2
80a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 7 of 24

The Federal Rules of Appellate Procedure describe two types of cases that
merit en banc review: ones that are necessary to secure or maintain uniformity of
the court's decisions, and ones involving a question of exceptional importance.
Fed.R.App.P. 35(a). This case meets both those descriptions. As numerous courts
have recognized, the stop-clock test and diligence-through-filing approach are, at
best, "in tension," and at worst, "irreconcilable." Only this court sitting en banc
can resolve this conflict, secure uniformity of decision, and provide much-needed
guidance to the district courts. So too, a significant portion of this Court's docket
is devoted to habeas corpus appeals, and many of those appeals involve equitable
tolling.1 Thus, the case presents a recurring issue of exceptional importance.
The fact that so many panels have wrestled with this specific issue suggests
it is a pressing problem that will not go away. For two reasons, Mr. Smith's case is
an excellent vehicle for resolving the question. First, the facts, which are not in
dispute, paint the issue in unusually stark relief: Mr. Smith's repeated efforts to
obtain the appellate record from his appointed appellate attorney were
unsuccessful, and it was not until after he filed a state bar complaint that he
received it. The magistrate judge ruled that Mr. Smith "acted diligently," and if he
Of the 6,624 appeals commenced in this Circuit during the 12-month period
ending June 30, 2018, more than 15% involved "Habeas Corpus - General."
Statistical Tables for the Federal Judiciary, Table B-7, available at:
http://www.uscourts.gov/report-names/statistical-tables-federal-judiciary (last
visited Dec. 19, 2018). A LEXIS Advance search for "'equitable tolling' and
AEDPA and date>1/1/2018" limited to the Ninth Circuit revealed 407 hits.
3
1

81a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 8 of 24

were entitled to equitable tolling for the 66-day period he was separated from his
record, his petition would have been timely. She concluded, however, "it
appeared" Mr. Smith's "own lack of diligence during the ten months after he
received the appellate record, and not the [attorney's] delay in forwarding the
records, . . . was the cause of petitioner's untimeliness." Second, the law is well
established in this Circuit that it is unrealistic to expect a habeas petitioner to
prepare and file a meaningful petition on his own within the limitation period
without access to his legal file, so the extraordinary circumstances test is plainly
met.
Below, we trace the adoption of the stop-clock rule and the benefits its
application secures. We next explain how this court adopted the rule to apply
equitable tolling in the context of habeas corpus cases arising under the
Antiterrorism and Effective Death Penalty Act (AEDPA). We note, however, that
when the court adopted the stop-clock rule, it still permitted courts to examine a
litigant's diligence in the post-impediment period - something the stop-clock rule
expressly prohibits. This has caused widespread confusion, which merits this
court's en banc attention. Finally, we detail why Mr. Smith's is an ideal case to
address this important issue.

4
82a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 9 of 24

II.

ARGUMENT
A.

The stop-clock rule promotes statute of limitation policies,
respects congressional authority, and encourages the exhaustion
of state remedies without eliminating federal habeas relief.

Congress creates statutes of limitations to promote certainty and uniformity
so that litigants can know how long they have to file a claim and plan their affairs
accordingly. There is a rebuttable presumption, though, that limitation periods are
subject to equitable tolling. Irwin v. Dep’t of Veterans Affairs, 498 U.S. 89, 96
(1990). There might be uncertainty in any given case whether or not the court will
apply equitable tolling, but under the stop-clock rule, the parties will be able to
calculate with some confidence the date on which the period would run if tolling is
applied, and act accordingly. When courts employ the diligence-through-filing
approach, however, they encroach on the legislative decision to set a limitation
period by effectively substituting their own subjective view of how much time a
litigant reasonably needs to file suit. The benefits of the stop-clock rule were
examined in the 2001 en banc decision of Socop-Gonzalez v. INS, 272 F.3d 1176,
which adopted the rule.
In that case, the petitioner, an alien, had 90 days in which to file a motion to
reopen his deportation proceedings. Because of incorrect advice from an
Immigration and Naturalization Services officer, however, he withdrew his appeal
from the deportation order. For a period of 63 days, he had no reason to believe
5
83a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 10 of 24

his deportation had become effective. This Court held the petitioner was entitled
to equitable tolling, and the 63 days should not have counted toward the ninety-day
period during which the petitioner could have filed a motion to reopen. Id. at 1194.
The government argued that in determining whether a litigant was entitled to
equitable tolling, a court had to "further inquire whether he reasonably could have
been expected to file his motion to reopen within the twenty-seven days remaining
in the limitations period." Id. at 1194. The government stood on solid ground
because the same argument had been accepted just a year earlier by a panel of this
Court in Santa Maria v. Pac. Bell, 202 F.3d 1170 (2000), which in turn relied on
the Seventh Circuit's decision in Cada v. Baxter Healthcare Corp., 920 F.2d 446
(1990)). But the en banc court rejected the Santa Maria/Cada approach for three
reasons: it was "needlessly difficult to administer, runs counter to Supreme Court
precedent, and undermines the policy objectives of the statutes of limitations."
Socop-Gonzalez, 272 F.3d at 1194.
Because Socop-Gonzalez sets forth the controlling rule, its reasoning
deserves quotation at length:
The Santa Maria rule does away with the major advantages of
statutes of limitations: the relative certainty and uniformity with
which a statutory period may be calculated and applied. See Burnett
[v. N.Y. Cent. R.R. Co.], 380 U.S. [424] at 436 (1965) (stating that the
policies served by statutes of limitations are "uniformity and
certainty"). While under the conventional tolling rule there may be

6
84a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 11 of 24

uncertainty in any given case whether equitable tolling will apply at
all, the parties are able to calculate with some certainty the date on
which the period would run if tolling is applied, and act accordingly.
Moreover, litigants across the board are given the same amount of
time in which to file a claim. The Santa Maria rule, in contrast,
promotes inconsistency of application and uncertainty of calculation,
thus undermining two of the purposes served by statutes of
limitations.
The approach taken in Santa Maria was also explicitly rejected
by the Supreme Court in Burnett. In Burnett, the Court decided to
apply equitable tolling to a limitations period within which to bring
suit under the Federal Employers' Liability Act (FELA). The plaintiff
originally filed suit in the wrong venue, and brought suit in the proper
venue only after the limitations period had run. After deciding that
equitable circumstances warranted the application of tolling, the Court
had to determine for how long the filing period should be tolled. The
Court explicitly rejected the suggestion that the filing period be tolled
"for a 'reasonable time' after the state court orders the plaintiff's
action dismissed because such a rule would create uncertainty as to
exactly when the limitation period again begins to run." Instead, in
the name of greater uniformity and certainty, the Court adopted the
rule that "under familiar principles which have been applied to
statutes of limitations . . . the limitation provision is tolled until the
state court order dismissing the state action becomes final .." This
precedent appears to foreclose the approach to tolling taken in Santa
Maria and Cada.
Finally, the approach to tolling taken in Santa Maria and Cada
trumps what is arguably Congress' intended policy objectives in
setting forth a statutory limitations period -- to permit plaintiffs to take
a specified amount of time (even if they don't "need it," Cada, 920
F.2d at 452) to further investigate their claim and consider their
options before deciding whether to file suit. A court may decide
whether or not to use its equitable powers to toll a limitations period,
but a court arguably usurps congressional authority when it tolls
and then rewrites the statute of limitations by substituting its own
subjective view of how much time a plaintiff reasonably needed to
file suit. Moreover, the Santa Maria/Cada approach provides the
plaintiff with an incentive to rush to court without fully considering
7
85a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 12 of 24

his or her claim -- a policy that serves none of the parties involved.
Accordingly, we reject the approach to tolling adopted in Santa
Maria, and we need not inquire whether Socop reasonably could have
filed his motion to reopen within the twenty-seven days remaining in
the limitations period . . ..
272 F.3d at 1195-96 (some citations omitted, emphasis added).2
Shortly after Socop-Gonzalez was decided, an equitable tolling case came to
this Court in the context of the AEDPA, in which the petitioner alleged he was
denied access to his files during prison transfers that lasted eighty-two days. Lott
v. Mueller, 304 F.3d 918 (9th Cir. 2002). The majority agreed his alleged
circumstances appeared to meet the equitable tolling test, but remanded the case to
allow the state to rebut the petitioner's allegations. Id. at 924-26. In her
concurring opinion, Judge McKeown, agreed with the majority's conclusion, but
stressed she would have arrived there "by the more direct and practical approach
recently adopted by our court en banc in Socop-Gonzalez." Id. at 926. She
criticized the majority for "appear[ing] to address the very question Socop has
precluded, namely whether the petitioner 'could reasonably have been expected to
file his motion . . . in the [time] remaining in the limitations period.'" Id. at 926
(quoting Socop-Gonzalez, 272 F.3d at 1195). The majority's approach to tolling,
she explained, is "opaque at best," and frustrates a petitioner's efforts to utilize the
Contra Mangum v. Action Collection Serv., Inc., 575 F.3d 935, 945 (9th Cir.
2009) (O'Scannlain, J., concurring) (criticizing Socop-Gonzalez as "a significant
unwarranted departure from ancient principles of equity").
8

2

86a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 13 of 24

full limitations period Congress bestowed.
Urging the adoption of Socop-Gonzalez's practical and bright-line
rule, Judge McKeown concluded:
I can find nothing in the context of a civil habeas suit that
would diminish the tolling concerns addressed in Socop. The
alternative is neither practical nor prudent. Instead of a definite and
relatively easy-to-apply limitations period, the courts would be left
drawing lines within lines that create new limitations within the one
originally imposed by Congress. A year is a year is a year. A year in
the context of a statute of limitations should have the same certainty
as a year that represents the number of days required for one
revolution of the earth around the sun.
Id. at 927 (citation omitted, emphasis added).
This Court recently affirmed that the stop-clock rule of Socop-Gonzalez
"remains the law in our circuit and applies" with full force in AEDPA cases.
Gibbs v. LeGrand, 767 F.3d 879, 892 (9th Cir. 2014). Writing for the Court, Judge
Berzon explained that Socop-Gonzalez rejected the diligence-through-filing
approach to equitable tolling, where courts consider whether a claimant should
have been expected to file his lawsuit within the amount of time left in the statute
of limitations after an extraordinary circumstance barring filing was lifted. Instead,
Gibbs teaches, "the event that tolls the statute simply stops the clock until the
occurrence of a later event that permits the statute to resume running." Id. at 892
(quotation omitted). The stop-clock rule promotes the AEDPA's aim of
encouraging the exhaustion of state remedies without eliminating federal habeas
9
87a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 14 of 24

relief. Gibbs noted the rule's effects, concisely and unconditionally: "[the] rule
prohibits courts from constraining litigants to a judicially imposed filing window,
and warns against imposing additional diligence requirements on recipients of
equitable tolling." Id. at 892 (emphasis added).
In the very next paragraph, however, Gibbs does a complete about-face and
claims courts may do what Socop-Gonzalez specifically "prohibited," i.e., consider
a petitioner's diligence after an extraordinary circumstance has been lifted. They
may do so, the court claimed, "as one factor in a broader diligence assessment."
Ibid. But applying both rules is contrary to logic and bad policy. Examining
whether a petitioner is diligent after the extraordinary circumstances have ceased
completely subsumes the stop-clock rule and vitiates its benefits. It injects
considerable confusion and disparity where Congress intended certainty and
uniformity, and it permits judicial encroachment on Congress's legislative
prerogative.3

A recent decision of the Supreme Court reaffirms that "tolling" a limitation period
means "stopping the clock." Artis v. District of Columbia, 138 S. Ct. 594 (2018).
While that case involved statutory tolling, the Court declared, "We have similarly
comprehended what tolling means in decisions on equitable tolling." Id. at 602
(emphasis added). It quoted with approval an earlier decision describing equitable
tolling in conformity with the stop-clock rule: "Principles of equitable tolling
usually dictate that when a time bar has been suspended and then begins to run
again upon a later event, the time remaining on the clock is calculated by
subtracting from the full limitations period whatever time ran before the clock was
stopped." Id. at 602 (quoting United States v. Ibarra, 502 U.S. 1, 4 (1991)).
Finally, and most importantly for purposes of this case, Artis commended the stop-

3

10
88a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 15 of 24

B.

The "irreconcilable" approaches have caused widespread
confusion that can be resolved only by addressing the issue
en banc.

It is not surprising that subsequent panels have struggled to apply these
divergent tests. In Luna v. Kernan, 784 F.3d 640 (9th Cir. 2015) (per Watford, J.),
the court acknowledged Gibbs adopted the stop-clock rule.4 But Luna also
observed that in Spitsyn v. Moore, 345 F.3d 796 (9th Cir. 2003), this Court
"require[d] a petitioner to show diligence through the time of filing, even after the
extraordinary circumstances have ended." Ibid. In Spitsyn, the case was remanded
to determine whether the petitioner, whose lawyer delayed returning his files,
exercised diligence during the 174 days that elapsed between the time he received
his files back (the point at which the extraordinary circumstances ceased) and the

clock rule as "suited to the primary purposes of limitations statutes: promoting
certainty by preventing surprises to defendants and barring a plaintiff who has slept
on his rights." Id. at 594.
4

The Luna court suggested there is a circuit split because the Second Circuit
follows a "pure stop-clock approach," which the diligence-through-filing rule
"appears to thwart." Id. at 651 (citing Harper v. Ercole, 648 F.3d 132, 136-37 (2d
Cir. 2011)).

Notably, Luna also observed another rationale supporting application of the
stop-clock rule in the AEDPA context - a rationale that had not been recognized
by earlier cases. The stop-clock approach to equitable tolling works similarly to
the way statutory tolling does under 28 U.S.C. § 2244(d)(2): any period when
there are extraordinary circumstances and diligence (for equitable tolling) or a
properly filed petition for state post-conviction relief pending (for statutory tolling)
is simply not counted toward the statute of limitations. Id. (citing Wood v.
Milyard, 566 U.S. 463, 468 & n.3 (2012)).
11
89a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 16 of 24

date he filed his pro se petition. The Luna court felt compelled, "under current
circuit law," to apply "both the diligence-through-filing requirement imposed by
Spitsyn and the stop-clock approach adopted in Gibbs." Id. at 652 (emphasis
added). Luna presciently forecasted, however, "our circuit may need to decide
whether it makes sense to follow the stop-clock approach and at the same time
impose a diligence-through-filing requirement. If the objective of the stop-clock
approach is to give petitioners one full year of unobstructed time to prepare a
federal habeas petition, a separate diligence-through-filing requirement
appears to thwart that objective." Ibid. (citing Lott, 304 F.3d at 926-27
(McKeown, J.,concurring) (emphasis added)).
Just last year, another panel recognized the "considerable confusion" in the
circuit's case law regarding "whether a petitioner may need to prove that he was
diligent after an extraordinary circumstance has ended." Grant v. Swarthout, 862
F.3d 914, 925 (9th Cir. 2017) (emphasis in original). Writing for the court, Judge
Reinhardt noted, "Although some language exists in our cases suggesting that,
contrary to the stop-clock approach, diligence may be required for the remainder of
the filing period, it bears emphasizing that we have never denied relief to a
petitioner because he did not exercise diligence after the relevant extraordinary

12
90a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 17 of 24

circumstance had ended." Id. at 924 n.9. (emphasis in original).5 In cases like Mr.
Smith's, the court "would be inclined to hold that diligence is not required after the
termination of an extraordinary circumstance" because the stop-clock approach
"give[s] effect to Congress's intent to provide prisoners with a full 365 days to file
their state and federal petitions." Id. at 925.
In a recent memorandum disposition, Judge Murguia penned a dissenting
opinion tracing the two lines of cases, and plainly concluded they are
"irreconcilable."
As the majority notes . . . Luna v. Kernan advises this Court to
apply both the diligence-through-filing requirement imposed by
Spitsyn and the stop-clock approach adopted in Gibbs. However, I
take issue with Luna's attempt to reconcile the diligence-throughfiling requirement and the stop-clock approach. Under the stop-clock
rule, diligence during the post-impediment period does not need to be
shown. If, as Luna asserts, another line of cases holds that diligence
must be shown, then the two lines of cases are irreconcilable. In
attempting to apply both approaches, which directly contradict each
other, the diligence-through-filing rule necessarily subsumes the stopclock rule. Because the stop-clock rule is a definitive test and is
consistent with the policy objectives of the statute of limitations, I
would apply this rule [in this case]."
Bobadilla v. Gipson, 679 Fed. Appx. 600, 2017 U.S. App. LEXIS 4102, **6 (9th
Cir. March 8, 2017) (Murguia, J., dissenting) (emphasis added).
These recent cases demonstrate that the confusion sown by the diligenceSpitsyn, the court observed, addressed the diligence prong in dicta only; the court
did not indicate that the petitioner's lack of diligence post extraordinary
circumstances (if such a finding were made on remand) would necessarily preclude
a finding of equitable tolling. Ibid.

5

13
91a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 18 of 24

through-filing approach is substantial and on going. And that confusion is not
limited to habeas corpus cases. Last year this court noted the confusion of the
Bankruptcy Appellate Panel in applying the stop-clock rule in bankruptcy
proceedings. Milby v. Templeton, 875 F.3d 1229 (9th Cir. 2017).6 Unless and until
this court grants en banc review to resolve this issue, given the ubiquity of statutes
of limitations and equitable tolling, this confusion is likely to spread to other areas
of the law.
C.

This case is the perfect vehicle for addressing the recognized
and widespread confusion created by the divergent tests.

Mr. Smith was wrongfully deprived of his appellate file for 66 days by his
appellate lawyer, whose conduct violated the California Rules of Professional
Conduct. See Cal. Rules Prof'l Conduct, Rules 3-500 (communication) and 3700(D) (termination of employment). There can be no doubt Mr. Smith diligently
sought his file, through telephone calls, letters, and finally filing a State Bar
complaint, and the district court so concluded. ER 11. It is equally clear that, in
this Circuit, "it is 'unrealistic to expect [a habeas petitioner] to prepare and file a
meaningful petition on his own within the limitations period' without access to his
legal file." Espinoza-Matthews v. California, 432 F.3d 1021, 1207 (9th Cir. 2015)

Milby claimed that Gibbs "resolved" "the tension" between the stop-clock rule
and diligence-through-filing approach, but in fact, as Judge Murguia correctly
concluded in Bobadilla, the two rules are not only in tension, they are
"irreconcilable." 2017 U.S. App. LEXIS at **6.

6

14
92a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 19 of 24

(quoting Spitsyn, 345 F.3d at 801 (alternation in Espinoza-Matthews)). Mr. Smith
filed his pro se federal habeas petition almost exactly 66 days after the statute of
limitation ran absent equitable tolling.
Thus, the issue was raised and preserved in the lower courts, and it is starkly
and clearly presented on the facts, which are undisputed. This case is an ideal
vehicle for addressing this recurring and vexing problem that has caused
widespread confusion in applying equitable tolling principles in habeas corpus
proceedings, which confusion will likely spread to other areas of the law unless
this court grants en banc review.
III.

CONCLUSION
For the foregoing reasons, Mr. Smith respectfully requests this Court grant

rehearing and rehearing en banc, reverse the district court's judgment, and remand
the case with instructions to consider the petition on its merits.
DATED: December 27, 2018
Respectfully submitted,
HEATHER E. WILLIAMS
Federal Defender

s/ David M. Porter

David M. Porter
Assistant Federal Defender

15
93a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 20 of 24

No. 17-15874
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

ANTHONY SMITH,

D.C. No. 2:15-cv-01785 JAM AC
Eastern District of California,
Sacramento

Petitioner-Appellant,
v.
RON DAVIS, Warden,
Respondent-Appellee.

BRIEF FORMAT CERTIFICATION
PURSUANT TO CIRCUIT RULE 32-1
Pursuant to Fed. R. App. P. 32(a)(4)-(6), I certify that the attached petition
does not exceed 15 pages.
Dated: December 27, 2018
Respectfully submitted
HEATHER E. WILLIAMS
Federal Defender

s/ David M. Porter

David M. Porter
Assistant Federal Defender
Attorneys for Petitioner-Appellant
ANTHONY SMITH

16
94a

Case: 17-15874, 12/27/2018, ID: 11135779, DktEntry: 40, Page 21 of 24

No. 17-15874
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

ANTHONY SMITH,

D.C. No. 2:15-cv-01785 JAM AC

Petitioner-Appellant,

Eastern District of California,
Sacramento

v.
RON DAVIS, Warden,
Respondent-Appellee.
I hereby certify that on December 27, 2018, I electronically filed the Petition
for Panel Rehearing and Rehearing En Banc with the Clerk of the Court for the
United States Court of Appeals for the Ninth Circuit by using the appellate
CM/ECF system.
I certify that all participants in the case are registered CM/ECF users and
that service will be accomplished by the appellate CM/ECF system.
Dated: December 27, 2018

s/ Alex Moyle

Alex Moyle

17
95a

Case:
Page
22 1ofof243
Case:17-15874,
17-15874,12/27/2018,
10/17/2018,ID:
ID:11135779,
11049917,DktEntry:
DktEntry:40,
36-1,
Page

FILED

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

OCT 17 2018
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

No.

ANTHONY BERNARD SMITH, Jr.,

17-15874

D.C. No. 2:15-cv-01785-JAM-AC

Petitioner-Appellant,
v.

MEMORANDUM*
RON DAVIS,
Respondent-Appellee.

Appeal from the United States District Court
for the Eastern District of California
John A. Mendez, District Judge, Presiding
Argued and Submitted October 9, 2018
San Francisco, California
Before: D.W. NELSON, W. FLETCHER, and BYBEE, Circuit Judges.
Anthony Smith appeals the district court’s order dismissing his petition for writ
of habeas corpus. We have jurisdiction under 28 U.S.C. §§ 1291, 2253. We review
the district court’s order de novo. Spitsyn v. Moore, 345 F.3d 796, 799 (9th Cir.
2003). We affirm.
*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
96a

Case:
Page
23 2ofof243
Case:17-15874,
17-15874,12/27/2018,
10/17/2018,ID:
ID:11135779,
11049917,DktEntry:
DktEntry:40,
36-1,
Page

Smith filed his habeas petition on August 14, 2015, approximately twelve
months after he received his appellate record from his attorney and fourteen months
after his state conviction became final. The magistrate judge issued findings and a
recommendation that Smith’s petition be dismissed. The district court dismissed
Smith’s petition as untimely.
Smith argues that he was entitled to equitable tolling for the two months during
which his appellate attorney improperly retained his records. A habeas petitioner
seeking equitable tolling must show “‘(1) that he has been pursuing his rights
diligently, and (2) that some extraordinary circumstance stood in his way’ and
prevented timely filing.” Holland v. Florida, 560 U.S. 631, 649 (2010) (quoting Pace
v. DiGuglielmo, 544 U.S. 408, 418 (2005)). “Courts may . . . consider a petitioner’s
diligence, after an extraordinary circumstance has been lifted, as one factor in a
broader diligence assessment” to “ensure that the extraordinary circumstance faced
by petitioners . . . cause[d] [] the tardiness of their federal habeas petitions.” Gibbs
v. Legrand, 767 F.3d 879, 892 (9th Cir. 2014) (citations and quotations omitted). We
are willing to assume that the failure of Smith’s counsel to provide his records was an
extraordinary circumstance. But when Smith received his records, he had ten months
left in which to file his federal petition. Smith did not explain why the two-month
deprivation of his records caused his untimely filing. A review of his petition reveals
2
97a

Case:
Page
24 3ofof243
Case:17-15874,
17-15874,12/27/2018,
10/17/2018,ID:
ID:11135779,
11049917,DktEntry:
DktEntry:40,
36-1,
Page

that it is essentially a verbatim copy of his previous state filings. Under these
circumstances, the district court was correct to conclude that Smith had not established
(1) that the deprivation of his appellate record caused his untimely filing or (2) that
he diligently used the ten months of the limitations period that remained after
receiving his records.
AFFIRMED.

3
98a

Case 2:15-cv-01785-JAM-AC Document 24 Filed 09/08/16 Page 1 of 12

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

ANTHONY SMITH,

12
13
14

No. 2:15-cv-1785 JAM AC P

Petitioner,
v.

FINDINGS AND RECOMMENDATIONS

RON DAVIS,

15

Respondent.

16
17

Petitioner is a state prisoner proceeding pro se and in forma pauperis with a petition for

18

writ of habeas corpus pursuant to 28 U.S.C. § 2254. The petition challenges his 2012 conviction,

19

following a jury retrial, for oral copulation and related enhancements. ECF No. 1. Petitioner

20

seeks relief from his conviction on grounds of instructional error, prosecutorial misconduct, and

21

ineffective assistance of counsel.

22

Respondent moves for dismissal on the ground that the instant petition was filed beyond

23

the AEDPA one-year statutory limitation period. ECF No. 14. Petitioner opposed the motion,

24

ECF No. 19, and respondent filed a reply, ECF No. 22. For the reasons discussed below, the

25

undersigned recommends that the petition be dismissed as untimely.

26

I.

Factual and Procedural Background

27

The relevant chronology of this case is as follows:

28

In 1998, petitioner was convicted of one count of residential burglary, two counts of
1

99a

Case 2:15-cv-01785-JAM-AC Document 24 Filed 09/08/16 Page 2 of 12

1

residential robbery, and one count of forcible oral copulation and related enhancements. Lodged

2

Doc. 2 at 1. Petitioner was sentenced to an indeterminate term of 25-years-to-life in state prison

3

on the oral copulation charge, and a 20-year consecutive determinate term on the other counts.

4

Id. at 2.

5

In 2010, petitioner was granted federal habeas relief with respect to the oral copulation

6

conviction, which was vacated on the ground that the trial court coerced the jury’s verdict on that

7

charge. Lodged Doc. 2 at 2; Dkt. No. 94 in Smith v. Kane, Case No. 2:03-cv-1871-LKK-KJM

8

(E. D. Cal. Nov. 3, 2010).

9

Petitioner was retried by a jury on the oral copulation charge and related enhancements.

10

In 2012, petitioner was again convicted and sentenced to an indeterminate term of 25 years to life.

11

Lodged Doc. 2 at 2.

12

Petitioner appealed, and on December 16, 2013, the California Court of Appeal, Third

13

Appellate District, directed the trial court to amend the abstract of judgment to award custody

14

credits, but otherwise affirmed the judgment. Lodged Doc. 2 at 13.

15

On January 29, 2014, petitioner, through counsel, filed a petition for review in the

16

California Supreme Court. Lodged Doc. 3. The California Supreme Court denied the petition on

17

March 12, 2014 without comment or citation. Lodged Doc. 4.

18

Petitioner filed no post-conviction collateral challenges in state court.

19

The instant federal petition was constructively filed on August 14, 2015.1 ECF No. 1.

20

II.

21

Section 2244(d) (1) of Title 28 of the United States Code contains a one-year statute of

Statute of Limitations

22

limitations for filing a habeas petition in federal court. This statute of limitations applies to

23

habeas petitions filed after April 24, 1996, when the Antiterrorism and Effective Death Penalty

24

Act (AEDPA) went into effect. Cassett v. Stewart, 406 F.3d 614, 625 (9th Cir. 2005). Absent

25

circumstances not present here, the limitations period runs from the date that the state court

26
27
28

1

As a pro se inmate, petitioner is entitled to the use of the prison mailbox rule in determining the
constructive filing date of his federal habeas petition. Houston v. Lack, 487 U.S. 166, 276
(1988).
2

100a

Case 2:15-cv-01785-JAM-AC Document 24 Filed 09/08/16 Page 3 of 12

1

judgment becomes final by the conclusion of direct review or the expiration of time to seek direct

2

review. § 2244(d)(1)(A); Porter v. Ollison, 620 F.3d 952, 958 (9th Cir. 2010). The time during

3

which a “properly filed” application for state post-conviction relief is pending does not count

4

toward this one-year period. § 2244(d)(2); Porter, 620 F.3d at 958.

5

In the instant case, the California Supreme Court denied the petition for review on March

6

12, 2014. Lodged Doc. 4. Petitioner’s conviction became final ninety days later, on June 10,

7

2014, when the time for seeking certiorari with the United States Supreme Court expired. See

8

Bowen v. Roe, 188 F.3d 1157 (9th Cir. 1999). The AEDPA statute of limitations period began to

9

run the following day, on June 11, 2014. See Patterson v. Stewart, 251 F.3d 1243, 1246 (9th Cir.

10

2001) (the AEDPA limitations period begins to run on the day after the triggering event pursuant

11

to Fed. R. Civ. P. 6(a)). Absent tolling, petitioner’s last day to file his federal petition was June

12

10, 2015.

13

Because petitioner filed no applications for state habeas relief, the limitations period

14

elapsed without any tolling on June 10, 2015. The instant petition was constructively filed on

15

August 14, 2015, just over two months after the one-year limitations period expired.

16

Accordingly, this action is time-barred unless petitioner can demonstrate that he is entitled to

17

equitable tolling. Petitioner concedes the instant petition’s facial untimeliness, but argues that he

18

is entitled to equitable tolling. ECF No. 19.

19

III.

20

A habeas petitioner is entitled to equitable tolling of AEDPA’s one-year statute of

Equitable Tolling

21

limitations only if the petitioner shows: “(1) that he has been pursuing his rights diligently, and

22

(2) that some extraordinary circumstance stood in his way' and prevented timely filing.” Holland

23

v. Florida, 560 U.S. 631, 649 (2010) (quoting Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005));

24

Ramirez v. Yates, 571 F.3d 993, 997 (9th Cir. 2009). The diligence required is “reasonable

25

diligence,” not “maximum feasible diligence.” See Holland, 560 U.S. at 653; see also Bills v.

26

Clark, 628 F.3d 1092, 1096 (9th Cir. 2010).

27

“The threshold necessary to trigger equitable tolling under AEDPA is very high, lest the

28

exceptions swallow the rule.” Miranda v. Castro, 292 F.3d 1063, 1066 (9th Cir. 2002) (citation
3

101a

Case 2:15-cv-01785-JAM-AC Document 24 Filed 09/08/16 Page 4 of 12

1

and internal quotation marks and punctuation omitted). “To apply the doctrine in ‘extraordinary

2

circumstances’ necessarily suggests the doctrine’s rarity, and the requirement that extraordinary

3

circumstances ‘stood in his way’ suggests that an external force must cause the untimeliness,

4

rather than, as we have said, merely ‘oversight, miscalculation or negligence on the petitioner's

5

part, all of which would preclude the application of equitable tolling.” Waldron–Ramsey v.

6

Pacholke, 556 F.3d 1008, 1011 (9th Cir. 2009) (quoting Harris v. Carter, 515 F.3d 1051, 1055

7

(9th Cir. 2008). Petitioner bears the burden of alleging facts that would give rise to tolling. Pace,

8

544 U.S. at 418.

9

A. Petitioner’s Allegations

10

Petitioner contends that he is entitled to equitable tolling because he was abandoned by his

11

appellate attorney, Scott Concklin, who refused to correspond with petitioner, failed to timely

12

inform petitioner that his petition for review had been denied by the California Supreme Court,

13

and delayed in forwarding petitioner’s appellate record. ECF No. 19 at 4-8. Specifically,

14

petitioner asserts that the following events support equitable tolling:

15
16

On March 12, 2014, petitioner’s petition for review was denied by the California Supreme
Court.

17
18

On May 10, 2014, petitioner “was advised by [his] family that the online docket in [his]
case reflected that [his] appeal was denied on March [12],2 2014.” ECF No. 19 at 23.

19

On May 11, 2014, petitioner sent the following letter to Concklin:

20

Dear Mr. Concklin,

21

I was recently appraised by my family that on March 12, 2014 the
California Supreme Court denied the Petition for Review that you
filed on my behalf thus ending your representation of me.3

22
23
2

24
25
26
27
28

Although petitioner alternatively asserts that his petition for review was denied by the California
Supreme Court on March 12, 2014 and March 13, 2014, this inconsistency appears to be a
typographical error. Regardless, the petition for review was denied on March 12, 2014. See
Lodged Doc. 4 (Order of denial).
3
It appears that Concklin had previously advised petitioner regarding the scope of Concklin’s
representation of petitioner. In a letter dated November 17, 2012, attached as an exhibit to
petitioner’s opposition, Concklin wrote:
If the [California] Supreme Court grants the petition for review, the
4

102a

Case 2:15-cv-01785-JAM-AC Document 24 Filed 09/08/16 Page 5 of 12

1

4

It has been 60 days since the Supreme Court’s order became
effective and yet I have not received my appellate record from you
OR any letter advising me of the court’s ruling in my case. As you
should be well aware, the time which you’re withholding my
appellate record is using up my statutory time that I have to file for
relief in the federal courts. Will you please send my appellate
record forthwith?

5

Thank you for your time and understanding with this matter.

2
3

6

ECF No. 19 Exh. G at 36. Petitioner’s letter went unanswered. Id. at 23.

7

On June 9, 2014, petitioner initiated a complaint to the State Bar of California regarding

8

Concklin’s conduct. ECF No. 19 at 23. In his complaint, petitioner described the difficulties he

9

had communicating with Concklin about his direct appeal in 2012 and 2013. See ECF No. 19

10

Exh. H at 38-39. Petitioner explained that Concklin refused to respond to letters or accept collect

11

phone calls, and failed to properly federalize his appellate brief, despite petitioner’s requests for

12

him to do so. Petitioner further explained that his petition for review had been denied and that he

13

had written a letter to Concklin asking why Concklin had not advised petitioner of “these

14

developments or sent [petitioner’s] appellate record so [petitioner] could proceed on [his] own.”

15

Id. at 39. Petitioner asserted that he still had not received a response from Concklin, or his

16

appellate record, and requested the Bar’s assistance with the matter, lamenting that Concklin’s

17

actions had “consumed 90 days of the time [petitioner had] to file [his] federal habeas court.” Id.

18

On July 7, 2014, petitioner received a response from the Bar, indicating that his complaint

19
20
21
22
23
24
25
26
27
28

was under evaluation. Id. at 23.
On or about August 15, 2014, petitioner received his appellate record from Concklin,
court of appeal decision will be vacated, and the Supreme Court
will decide the case anew. If the Supreme Court denies review, the
decision of the court of appeal will become final.
REMITTITUR. Once the decision of the court of appeal becomes
final, a remittitur will be issued formally, concluding your appeal.
My appointment as your attorney will conclude. If your appeal is
decided unfavorably, you still could have the opportunity to petition
the federal court for a writ of habeas corpus. Federal relief may be
available if your appeal raised federal constitutional issues, which
were incorrectly decided by the state court. There is currently a one
year statute of limitation, from the conclusion of a state appeal,
within which to file a federal petition.
ECF No. 19 Exh. C at 20.
5

103a

Case 2:15-cv-01785-JAM-AC Document 24 Filed 09/08/16 Page 6 of 12

1

along with a letter and a printout of the electronic docket in his appeal. Id. at 23. The letter from

2

Concklin, dated August 14, 2014, reads as follows:

3

Dear Mr. Smith:

4

I am enclosing a copy of the online docket in your appeal. It shows
that date of all activity from the inception of the case to the filing of
the remittitur. As I previously informed you, the remittitur signifies
that the California Supreme Court denied review and the appeal is
concluded.
The issuance of the remittitur concludes my
appointment as your attorney in the appeal. I have returned all of
the trial transcripts (Clerk and Reporter’s Transcripts) to you, which
you should have received.

5
6
7
8

The federal issues that were raised in your appeal were preserved
by filing a Petition in the California Supreme Court[.] The Review
Petition itself contains a summary of those issues that can be used
for reference in your federal writ petition, if you chose to file one.

9
10
11

ECF No. 19 Exh. F at 30.

12

Petitioner asserts that the August 14, 2014 letter was the first time Concklin informed him

13

that his appeal had been denied by the California Supreme Court and that Concklin no longer

14

represented petitioner as counsel. Id. at 23. Petitioner contends that he is entitled to equitable

15

tolling from the commencement of the limitations period on June 11, 20144 through August 15,

16

2014, when he received the above letter and appellate record from Concklin.5

17

Notably, if petitioner is entitled to equitable tolling for this period, the deadline for filing

18

the federal petition would be extended 66 days to August 15, 2015, rendering the instant petition,

19

filed August 14, 2015, timely. As explained more fully below, however, petitioner has not

20

demonstrated that the asserted extraordinary circumstances were the cause of his untimeliness.

21

////

22

////

23
24
25
26
27
28

4

Although petitioner contends he is entitled to equitable tolling beginning on March 13, 2014, see
ECF No. 19 at 7-8, the federal statute of limitations period did not begin to run until June 11,
2014. Accordingly, the court considers whether petitioner is entitled to equitable tolling
beginning on June 11, 2014 rather than March 13, 2014.
5
To the extent respondent asserts that petitioner meant to allege that he received the appellate
record from Concklin on August 14, 2014 (the date of the letter) rather than August 15, 2014, the
court disagrees. Considering that the letter is dated August 14, 2014, it is seems unlikely that
petitioner received the letter on the same date.
6

104a

Case 2:15-cv-01785-JAM-AC Document 24 Filed 09/08/16 Page 7 of 12

1

B. Discussion

2

Under extraordinary circumstances, counsel’s malfeasance may support equitable tolling.

3

Holland, 560 U.S. at 652-53 (equitable tolling may be appropriate where post-conviction counsel

4

effectively abandoned client); Spitsyn v. Moore, 345 F.3d 796, 801 (9th Cir. 2003) (statute of

5

limitations equitably tolled where attorney was retained to prepare and file a habeas petition for

6

incarcerated inmate, failed to do so, and then disregarded requests to return files pertaining to the

7

case until well after the petition was due); Gibbs v. Legrand, 767 F.3d 879, 886 (9th Cir. 2014)

8

(“[f]ailure to inform a client that his case has been decided, particularly where that decision

9

implicates the client’s ability to bring further proceedings and the attorney has committed himself

10

to informing his client of such a development, constitutes attorney abandonment.”); Foley v.

11

Biter, 793 F.3d 998, 1003 (9th Cir. 2015) (equitable tolling warranted where counsel failed to

12

communicate with client, failed to notify client that his habeas petition had been denied, and

13

failed to withdraw as counsel so client could be served directly, where client believed counsel

14

was representing him and expected a long delay before receiving a decision from the district

15

court).

16

Relying on Gibbs v. Legrand, 767 F.3d 879, petitioner asserts that Concklin’s failure to

17

communicate with him, failure to inform him that his petition for review had been denied by the

18

California Supreme Court, and delay in forwarding the appellate record amounts to client

19

abandonment warranting equitable tolling. ECF No. 19 at 4, 6-7.

20

In Gibbs, the petitioner’s attorney filed a state post-conviction petition in the Nevada

21

Supreme Court and promised to forward petitioner any notice received from the court regarding

22

his case. 767 F.3d at 882-83. When the Nevada Supreme Court denied the petition, counsel did

23

not notify petitioner of the denial, despite petitioner’s repeated inquiries regarding the status of

24

his case. Id. at 883. As a result, petitioner did not learn that his petition had been denied until

25

petitioner wrote to the Nevada Supreme Court and received, in response, a copy of the docket

26

sheet reflecting the order of denial. Id. By that time, the one-year deadline for filing a federal

27

habeas corpus petition had expired. Id. at 882. The Ninth Circuit held that counsel’s failure to

28

communicate and failure to inform the petitioner of the state court’s decision, despite counsel’s
7

105a

Case 2:15-cv-01785-JAM-AC Document 24 Filed 09/08/16 Page 8 of 12

1

promise to do so, amounted to abandonment, such that the petitioner was not responsible for the

2

fact that he did not learn of the state court’s denial of his petition until after the federal filing

3

deadline had passed. Id. at 887-88.

4

The court first notes the markedly different obstacles faced by the petitioner in Gibbs and

5

petitioner in the instant case. In Gibbs, the petitioner repeatedly attempted to contact counsel to

6

learn the status of his case, but as a result of counsel’s actions remained unaware that the state

7

court had reached a decision in his case and that the federal limitations clock had started ticking.

8

In contrast, petitioner here learned on his own, before the federal limitations period commenced,

9

that the state court had reached a decision in his case, and attempted to contact counsel in order to

10

retrieve the appellate record so he could proceed on his own. Whereas the petitioner in Gibbs

11

remained wholly ignorant of the limitations period, petitioner here was motivated by his own

12

knowledge that the limitations clock was ticking.

13

The instant case also differs from Gibbs in that there is no indication that Concklin

14

promised to personally inform petitioner when the state court issued a decision in his direct

15

appeal. See Gibbs, 767 F.3d at 887 (“Moreover, [counsel] went out of his way to guarantee

16

Gibbs that he would update him about the case . . .”) (emphasis in original). Rather, it appears

17

Concklin advised petitioner that if the California Supreme Court denied his petition for review,

18

petitioner would receive notice directly from the Court of Appeal, in the form of a remittitur,

19

which would signal to petitioner that his appeal had concluded. See ECF No. 19 Exh. C at 20.

20

However, because it is unclear from the record before the court whether petitioner actually

21

received notice from the state court, the court will assume for the purposes of this motion that

22

petitioner did not receive the remittitur.6

23
24

Even assuming that petitioner did not receive the remittitur and that Concklin’s actions
constitute client abandonment, the larger problem is that petitioner has not demonstrated that

25
6

26
27
28

While respondent asserts that the proof of service attached to the remittitur shows that petitioner
was directly served with a copy of the remittitur on March 19, 2014, ECF No. 22 at 3, the
remittitur and proof of service were not included in the documents respondent lodged with the
court, see ECF No. 15 (Notice of Lodging). Petitioner makes no mention of whether he received
the remittitur.
8

106a

Case 2:15-cv-01785-JAM-AC Document 24 Filed 09/08/16 Page 9 of 12

1

these circumstances were the cause of his untimely filing.

2

First, while petitioner asserts that Concklin did not timely notify him that the California

3

Supreme Court denied his appeal on March 12, 2014, petitioner concedes that he learned of the

4

denial on May 10, 2014 from another source. See Ramirez v. Yates, 571 F.3d at 997–98 (9th Cir.

5

2009) (“a prisoner’s lack of knowledge that the state courts have reached a final resolution of his

6

case can provide grounds for equitable tolling if the prisoner has acted diligently in the matter”)

7

(emphasis added). As discussed above, it was petitioner’s awareness of the state court’s denial,

8

and his understanding that the statute of limitations was running, that prompted petitioner’s May

9

11, 2014 letter to Concklin and subsequent complaint to the State Bar. Thus, Concklin’s delay in

10

notifying petitioner of the state court’s decision could not have been the cause of petitioner’s

11

untimeliness, as petitioner had actual notice of the denial an entire month before the statute of

12

limitations began to run.

13

Second, Concklin’s failure to communicate with petitioner did not mislead petitioner into

14

believing that Concklin was still representing petitioner or working to prepare a federal petition

15

on his behalf. Concklin had previously advised petitioner that Concklin’s representation of

16

petitioner would terminate upon the conclusion of direct review, and it is apparent from

17

petitioner’s statements in his May 11, 2014 letter that petitioner understood this point: “[O]n

18

March 12, 2014 the California Supreme Court denied the Petition for Review that you filed on my

19

behalf thus ending your representation of me.” See ECF No. 19 Exh. G at 36 (emphasis added).

20

Thus, there is no argument that petitioner delayed because he believed Concklin intended to

21

prepare his federal petition. See Gibbs, 767 F.3d at 888-89 (observing that until petitioner

22

definitively terminated the attorney-client relationship, petitioner may reasonably have believed

23

counsel was going to assist him in federal court); Foley, 793 F.3d at 1003. Petitioner clearly

24

understood that he was proceeding “on [his] own” and was focused on obtaining the appellate

25

record. See ECF No. 19 Exh. G at 36, 39.

26

Petitioner also appears to assert that he is entitled to equitable tolling because Concklin

27

did not provide him with a copy of the state court’s order denying his petition for review. See

28

ECF No. 19 at 6. See Gibbs, 767 F.3d at 889 (concluding that petitioner “could not realistically
9

107a

Case 2:15-cv-01785-JAM-AC Document 24 Filed 09/08/16 Page 10 of 12

1

file a federal petition” until he received a copy of the state court’s order affirming the denial of

2

his petition,” where petitioner requested a copy of the order from the state court and it was

3

unclear from the record when petitioner received the document). Here, petitioner’s allegation that

4

Concklin “has never” provided petitioner with a copy of the state court’s order suggests that

5

petitioner prepared and filed the instant federal petition without obtaining a copy of the order of

6

denial. Thus, it does not appear that Concklin’s failure to provide petitioner with a copy of the

7

state court order caused petitioner to file his federal petition two months late.

8
9

Petitioner’s main argument appears to be that he is entitled to equitable tolling because of
Concklin’s delay in forwarding the appellate record. Petitioner is correct that in some instances, a

10

petitioner’s lack of access to his or her legal files may warrant equitable tolling. See Waldron–

11

Ramsey, 556 F.3d at 1013 (“[d]eprivation of legal materials is the type of external impediment for

12

which we have granted equitable tolling”); Ramirez, 571 F.3d at 998 (holding that “a complete

13

lack of access to a legal file may constitute an extraordinary circumstance” and remanding for

14

determination of whether petitioner’s lack of access to his legal file made timely filing

15

impossible). However, the dispositive question is whether the denial of access to the files was the

16

cause of the delay. United States v. Battles, 362 F.3d 1195, 1197–98 (9th Cir. 2004).

17

Petitioner repeatedly asserts in his opposition that the “extraordinary circumstances”

18

brought about by Concklin’s actions were lifted on August 15, 2014, when petitioner received the

19

appellate record. At that time, ten months remained in the federal limitations period, and

20

petitioner has offered no explanation as to why he was unable to file his federal petition during

21

this ten month period. While the court’s own review of the record indicates that petitioner may

22

have used the appellate record to prepare a lengthy statement of facts,7 the arguments in the

23

federal petition were taken verbatim from the petition for review filed on direct appeal by counsel

24

in state court.8 Given that petitioner received the appellate record early in the limitations period,

25
7

26
27
28

Because petitioner’s opening appellate brief is not part of the record, it is unclear if the
statement of facts was taken from the brief prepared by counsel.
8
It appears that petitioner re-typed the argument section from the petition for review word for
word, with a few minor edits, i.e., “petitioner” instead of “appellant” and “appellate court” instead
of “Court of Appeal.” See ECF No. 1 at 27-54; Lodged Doc. 3 at 4-25.
10

108a

Case 2:15-cv-01785-JAM-AC Document 24 Filed 09/08/16 Page 11 of 12

1

and did not make any new arguments in his federal petition, there is no indication that petitioner

2

would have filed his federal petition within the one-year limitations period had he received the

3

appellate record from Concklin at an earlier date. See Randle v. Crawford, 604 F.3d 1047, 1058

4

(9th Cir. 2009) (no equitable tolling based on counsel’s retention of files where there was no

5

indication that petitioner would have filed his federal habeas petition within the one-year

6

limitations period had he received the files sooner); c.f. Spitsyn, 345 F.3d at 801 (equitable tolling

7

may be warranted where counsel retained petitioner’s case file through the duration of the federal

8

limitations period). Thus, it appears that it was petitioner’s own lack of diligence during the ten

9

months after he received the appellate record, and not Concklin’s delay in forwarding the records,

10
11

that was the cause of petitioner’s untimeliness.
Petitioner “bears the burden of showing his own diligence and that the hardship caused by

12

lack of access to his materials was an extraordinary circumstance that caused him to file his

13

petition . . . late.” Waldron–Ramsey, 556 F.3d at 1013 (emphasis added). While the court is

14

convinced that petitioner acted diligently to obtain his appellate record from Concklin, there is no

15

evidence that the delayed receipt of the files made timely filing impossible. Because petitioner

16

has not established that Concklin’s actions caused petitioner’s untimely filing, petitioner is not

17

entitled to equitable tolling. Accordingly, the undersigned recommends that respondent’s motion

18

to dismiss the petition as untimely be granted.

19

IV.

20

Pursuant to Rule 11 of the Federal Rules Governing Section 2254 Cases, this court must

Certificate of Appealabilty

21

issue or deny a certificate of appealability when it enters a final order adverse to the applicant. A

22

certificate of appealability may issue only “if the applicant has made a substantial showing of the

23

denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). For the reasons set forth in these

24

findings and recommendations, a substantial showing of the denial of a constitutional right has

25

not been made in this case. Therefore, no certificate of appealability should issue.

26

V.

27

In accordance with the above, IT IS HEREBY RECOMMENDED that:

28

1. Respondent’s motion to dismiss (ECF No. 14) be granted and petitioner’s application

Conclusion

11

109a

Case 2:15-cv-01785-JAM-AC Document 24 Filed 09/08/16 Page 12 of 12

1

for a writ of habeas corpus be denied as untimely.

2
3

2. This court decline to issue the certificat e of appealability referenced in 28 U.S.C. §
2253.

4

These findings and recommendations are s ubmitted too the United States District Judge

5

assigned to the case, pursuant to the provisions of 28 U.S.C. § 636(b)(l). Within fourteen days

6

after being served with these findings and recommendations, any party may file written

7

objections with the court and serve a copy on all p arties. Such a document should be captioned

8

“Objections to Magistrate Judge’s Findings and Recommendations.” Due to exigencies in the

9

court's calendar, no extensions of time will be g ranted. The parties are advised that failure to

10

file objections within the specified time may waiv e the right to appeal the District Court’s order.

11

Martinez v. Ylst, 951 F.2d 1153 (9th Cir. 1991).

12

DATED: September 9, 2016.

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
12

110a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 1 of 69

111a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 2 of 69

112a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 3 of 69

113a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 4 of 69

114a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 5 of 69

115a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 6 of 69

116a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 7 of 69

117a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 8 of 69

118a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 9 of 69

119a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 10 of 69

120a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 11 of 69

121a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 12 of 69

122a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 13 of 69

123a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 14 of 69

124a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 15 of 69

125a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 16 of 69

126a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 17 of 69

127a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 18 of 69

128a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 19 of 69

129a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 20 of 69

130a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 21 of 69

131a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 22 of 69

132a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 23 of 69

133a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 24 of 69

134a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 25 of 69

135a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 26 of 69

136a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 27 of 69

137a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 28 of 69

138a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 29 of 69

139a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 30 of 69

140a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 31 of 69

141a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 32 of 69

142a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 33 of 69

143a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 34 of 69

144a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 35 of 69

145a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 36 of 69

146a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 37 of 69

147a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 38 of 69

148a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 39 of 69

149a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 40 of 69

150a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 41 of 69

151a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 42 of 69

152a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 43 of 69

153a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 44 of 69

154a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 45 of 69

155a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 46 of 69

156a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 47 of 69

157a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 48 of 69

158a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 49 of 69

159a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 50 of 69

160a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 51 of 69

161a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 52 of 69

162a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 53 of 69

163a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 54 of 69

164a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 55 of 69

165a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 56 of 69

166a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 57 of 69

167a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 58 of 69

168a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 59 of 69

169a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 60 of 69

170a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 61 of 69

171a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 62 of 69

172a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 63 of 69

173a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 64 of 69

174a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 65 of 69

175a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 66 of 69

176a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 67 of 69

177a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 68 of 69

178a

Case 2:15-cv-01785-JAM-AC Document 1 Filed 08/24/15 Page 69 of 69

179a

